Semiannual Report
 to the Congress
April 1, 1994 - September 30,1994




   u.s. General Services Administration
       Office of Inspector General
        Foreword

This report summarizes the Office of Inspector General's
(DIG) activities between April 1, 1994 and September 30,
1994. Also included in this report are statistics for the
entire Fiscal Year 1994, during which the DIG achieved
many notable accomplishments.

This report reflects the success of our efforts infuljilling our
responsibilities under the Inspector General Act to promote
economy and efficiency and detect and prevent fraud,
waste, and abuse in the General Services Administration's
(GSA) programs and operations. In consonance with the
recommendations of the National Peiformance Review, we
have continued to help GSA enhance its peiformance in
carrying out its mission. Our efforts have included
evaluating mqjor Agency activities in light of program
outcomes, providing timely information to contracting
officials to aid in negotiations, and working to attain
resolution of significant criminal and civil actions.

During the 6-month reporting period, financial
recommendations resulting from our audit reports totaled
over $139 million infunds to be put to better use or in
questioned costs. In addition, 168 referrals were made for
criminal prosecution, civil litigation, and administrative
action.

I want to take this opportunity to thank the GSA
Administrator and Members of Congress for their
unwavering support. I also want to commend the
contributions of each DIG employee to our achievements
during the past 6 months.




WILLIAM R. BARTON
Inspector General

October 31, 1994
 Table of Contents

                                                                    Page

Summary of OIG Perfonnance                                              v

Fiscal Year 1994 Results                                               vi

Executive Summary                                                      vii

Organization, Staffing, and Budget                                      1

Procurement Activities                                                  2

Agency Operations                                                       8

Prevention Activities                                                  13

Review of Legislation and Regulations                                  15

Statistical Summary of OIG Accomplishments                             18

Appendices

Appendix I - Significant Audits from Prior Reports                    25

Appendix II - Audit Report Register                                   28

Appendix III - Delinquent Debts                                       48

Appendix IV - Reporting Requirements                                  49




                                            Ofilce of Inspector General iii
               Summary of OIG Performance

DIG Accomplishments   Total financial recommendations                             $139,912,888

                      These include:
                        • Recommendations that funds be put to
                          better use                                              $129,710,560

                        • Questioned costs                                          $10,202,328

                      Audit reports issued                                              241

                      Referrals for criminal prosecution, civil litigation,
                      and administrative action                                         168

                      Management decisions agreeing with questioned
Results Attained      costs, civil settlements, voluntary recoveries,
                      and court-ordered and investigative recoveries              $103,209,331

                      Indictments and informations on criminal referrals
                      and civil complaint referrals                                      27

                      Successful criminal prosecutions                                   13

                      Civil settlements                                                    7

                      Contractors suspended/ debarred                                    54

                      Employee actions taken on administrative
                      referrals involving GSA employees                                  10




                                                                      Office of Inspector General v
                               Fiscal Year 1994 Results

                                    During Fiscal Year 1994, OIG activities resulted in:

                                    •    Over $287 million in recommendations that funds be put to better
                                         use and in questioned costs. If adopted, these recommendations
                                         ultimately result in savings for the taxpayers.

                                    •    Management decisions to put $160.2 million in funds to better use
                                         based on OIG recommendations.

                                    •    503 audit reports that assisted management in making sound
                                         decisions regarding Agency operations.

                                    •    14 implementation reviews that tracked the progress of actions in
                                         response to internal audit reports.

                                    •    $61.8 million recovered as a result of management decisions to
                                         recover funds, civil settlements, voluntary recoveries, court-ordered
                                         recoveries, and investigative recoveries. 216 new investigations
                                         opened and 224 cases closed.

                                    ..   24 case referrals (57 subjects) accepted for criminal prosecution
                                         and 11 case referrals (18 subjects) accepted for civil litigation.

                                    ..   37 criminal indictmentsjinfonnations and 29 successful
                                         prosecutions on criminal matters referred.

                                    ..   Civil complaints against 3 individuals and 11 civil settlements or
                                         judgments.

                                    ..   1 referral to another Federal agency for further investigation.

                                    ..   32 employee actions taken on administrative referrals involving
                                         GSA employees.

                                    ..   31 contractor suspensions and 102 contractor debannents.

                                    ..   651 legislative matters and 100 regulations and directives reviewed.

                                    ..   273 Hotline calls and letters, 9 GAO referrals, and 54 other agency
                                         referrals.




vi   Semiannual Report To The Congress
Executive Summary

This report, submitted pursuant to the Inspector General Act oj 1978, as
amended, chronicles the activities oj the GSA OlG. It is the thirty-second
report to the Congress since the appointment oj the Agency'sfirst
Inspector GeneraL


Procurement Activities
GSA is responsible for providing space for almost 1 million Federal
employees. GSA, therefore, acquires buildings and sites, constructs
facilities, leases space, and contracts for repairs, alterations,
maintenance, and protection of Government-controlled space. GSA also
operates a Governmentwide service and supply system. To meet the
needs of customer agencies, GSA contracts for billions of dollars worth
of equipment, supplies, materials, and services each year. We review
these procurements on both a pre award and postaward basis to ensure
that the taxpayers' interests are protected. We perform apprOximately
400 contract reviews each year.

•   The OIG's preaward audit program provides information to GSA
    contracting officers for use in negotiating contracts. This program
    provides vital and current pricing and discount information to
    contracting officers, enabling them to improve the Government's
    negotiating position. The OIG performed pre award audits of
    168 contracts with an estimated value of $1. 9 billion. The reports
    contained over $128 million in financial recommendations to help
    ensure that the Government achieved the lowest price possible. (See
    page 13.)

•   The Government entered into four civil settlement agreements
    totaling $3.2 million with companies supplying computers,
    software, and related items. OIG audits and investigations revealed
    that three of the companies failed to provide current, accurate, and
    complete information during contract negotiations. The fourth
    company failed to comply with contract prOvisions requiring new
    equipment. (See page 2.)

•   A chemical supply company agreed to pay the Government
    $175,000 to settle its potential civil liability. An OIG investigation
    revealed that the company supplied adulterated paint and returned
    contaminated raw materials to GSA for reimbursement. Debarment
    action is under consideration. (See page 3.)

•   Three officials pled guilty to conspiracy to defraud numerous local,
    State, and Federal agencies. The officials formed a fictitious surety
    company and issued false bid and performance bonds totaling over
    $12 million to construction contractors. Sentencing is scheduled for
    October 1994. While none of the contractors defaulted on their
    contracts, the Government was placed at risk of being unable to
    recover costs if the contractors failed to perform. (See page 3.)



                                             Office of Inspector General vii
                                    Executive Summary

                                    ..     The OIG performed a review of an ongoing GSA National
                                           Performance Review reinvention project regarding Multiple Award
                                           Schedule acquisition of computer software products. GSA followed
                                           a reinvention recommendation and issued a contract modification
                                           increasing the dollar value of the maximum order limitation for
                                           software products. However, the Agency did not renegotiate for
                                           lower product pricing appropriate for the Significant increase in
                                           maximum order limitation. As a result, this increased prices to
                                           levels higher than provided in the previous year's contract. We
                                           recommended that GSA immediately alert Federal agencies that
                                           prices were unreasonable and that the agenCies should seek lower
                                           prices. (See page 4.)

                                    ..     GSA provides Purchase of Telecommunications Services (POTS)
                                           contracts which allow Federal agencies to purchase
                                           telecommunications equipment and services at fixed rates. An OIG
                                           audit found that customers were satisfied with the services
                                           provided; however, we believe that the contracts did not provide the
                                           best value. We recommended that GSA inform customers of all
                                           options available for their telecommunications needs, ensure
                                           contractors offer technologically advanced equipment, update
                                           contract speCifications, and evaluate the effectiveness of
                                           contracting methods. (See page 5.)

                                    ..     A GSA employee was convicted for soliciting and receiving bribes.
                                           An OIG investigation revealed that the employee had solicited a
                                           $25,000 bribe and accepted an initial $5,000 payment from a
                                           construction contractor. In return, the employee was to provide
                                           information which would enable the contractor to submit
                                           fraudulent payment claims to GSA. The employee was sentenced in
                                           U.S. District Court to 15 months in prison, 3 years probation, and
                                           ordered to pay fines. (See page 6.)

                                    Agency Operations
                                    GSA is a central management agency that sets Federal policy in such
                                    areas as Federal procurement, real property management, and
                                    telecommunications. GSA also manages diversified Government
                                    operations involving buildings management, supply facilities, real and
                                    personal property disposals and sales, data processing, and motor
                                    vehicle and travel management. In addition, GSA manages over
                                    115 accounting funds and provides cross-servicing support for client
                                    agencies. Our audits examine the efficiency, effectiveness, and integrity
                                    of GSA programs and operations and result in reports to management.
                                    Our internal audits program is designed to facilitate management's
                                    evaluation and improvement of control systems by identitying areas of
                                    vulnerability and including recommendations for improvement. This
                                    period, the OIG performed 51 internal reviews on Agency program
                                    areas.



viii   Semiannual Report To The Congress
Executive Summary

•   GSA disposes of surplus real property for other agencies on a
    reimbursable basis. We audited GSA's data collection and billing
    process for real property sales and found that GSA was not fully
    recovering costs and that the accounting system could not
    adequately track costs. We recommended that GSA develop a labor
    distribution system to simplifY cost tracking and modifY the
    accounting system to allow tracking of project costs. (See page 8.)

•   GSA operates vehicle maintenance control centers which serve as
    points of contact for customer agencies. We found that
    improvements could be made in processing invoices and managing
    maintenance and repair data. We recommended that GSA work
    with customer agencies and contractors to provide automated
    information, allow use of credit cards for routine maintenance and
    repair expenses, and streamline the maintenance control center
    operational structure. (See page 8.)

•   GSA operates the Federal Computer Acquisition Center to perform
    large scale computer acquisitions valued at over $100 million under
    reimbursable agreements with Federal agencies. Our review
    revealed that the Center lacked adequate management and
    financial control systems. We recommended that the Center develop
    a system to monitor projects to keep them on schedule. We believe
    that financial control would be improved if the Center estimated
    costs more accurately and monitored actual costs for each project
    phase. (See page 9.)

•   GSA provides administrative support services to its program
    activities through a centralized reimbursable program. We found
    that some offices were improperly funded and some activities were
    overassessed or underassessed for services. We recommended
    improvements in the allocation process, including the calculation of
    assessments based on budget and actual expenditures. In addition,
    we recommended that an independent body oversee the
    reimbursable program. (See page 10.)

•   GSA is responsible for the construction of new Federal buildings
    and the repair and alteration (R&A) of existing buildings. We
    reviewed one region's R&A work item inventory and found that
    projects could be more comprehensively planned and the data
    bases more accurately maintained. Also, we believe the building
    inspection program needed strengthening. We recommended that
    GSA assign a priority to all work items and enter them into the data
    base. In addition, the R&A tracking system should be validated to
    ensure data accuracy. (See page 11.)




                                            Office of Inspector General ix
                                   Executive Summary

                                   Prevention Activities
                                   In addition to detecting problems in GSA operations, the OIG is
                                   responsible for initiating actions to prevent fraud, waste, and abuse
                                   and to promote economy and efficiency.

                                   ..   785 GSA employees attended OIG integrity awareness briefings.
                                        These briefings educate employees regarding the prevention of
                                        fraud and abuse, and inform employees of their roles in helping to
                                        ensure the integrity of Agency opera,tions. (See page 14.)

                                   ..   We received 145 Hotline calls and letters, 1 GAO referral, and
                                        25 referrals from other agencies. Of these, 114 Hotline calls and
                                        other referrals required action. The Hotline offers a convenient
                                        means for providing information on suspected fraud, waste, and
                                        mismanagement relative to GSA operations nationwide. (See
                                        page 14.)




x   Semiannual Report To The Congress
               Organization, Staffing, and Budget

                      Pursuant to the Inspector GeneraL Act oj 1978, an OIG was estabLished
                      within the GSA on October 1, 1978. As currently configured, the OIG
                      consists oj six units thatjuflction cooperatively to peljorm the missions
                      mandated by the Congress.

                      The OIG provides nationwide coverage of GSA programs and activities.
Organization          It consists of:

                      •   The Office of Audits, an evaluative unit staffed with auditors and
                          analysts who provide comprehensive coverage of GSA operations
                          with program evaluations as well as reviews of GSA contractors and
                          financial agreements.

                      •   The Office of Investigations, an investigative unit that manages a
                          nationwide program to prevent and detect illegal and/or improper
                          activities involving GSA programs, operations, and personnel.

                      •   The Office of Counsel to the Inspector General, an in-house legal
                          staff that provides legal advice and assistance to all OlG
                          components, represents the OIG in litigation arising out of or
                          affecting OIG operations, and prepares OIG comments on proposed
                          legislation.

                      •   The Office of Administration, a centralized unit that provides
                          information systems support, handles budgetary, administrative,
                          and personnel matters, and formulates OIG comments on proposed
                          regulations and GSA policy issuances.

                      •   The Office of Quality Management. an in-house staff that
                          promotes and coordinates the total quality process within all OIG
                          components, and coordinates quality improvement initiatives with
                          other Federal entities.

                      •   The Internal Evaluation Staff, an analytical unit reporting directly
                          to the Inspector General that plans and directs an in-house
                          assessment program, including field office appraisals and sensitive
                          reviews of OIG operations.

                      The OIG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit and investigations offices are maintained in
                      Boston, New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                      Worth, San FranCisco, Auburn, and Washington, DC. Investigative sub-
                      offices are also maintained in Cleveland and Los Angeles.

                      The OlG completed Fiscal Year 1994 with a total on-board strength of
Staffing and Budget   387 employees.

                      The OIG's Fiscal Year 1994 budget was approximately $34.9 million.




                                                                    Office of Inspector General   1
                                Procurement Activities


Significant OIG                    Civil Settlements
                                   This period, the Government entered into seven civil settlement
Accomplishments                    agreements in which suppliers agreed to pay over $3.7 million. Tqese
                                   agreements were negotiated by representatives of the Department of
                                   Justice and the GSA OIG and reflect the ongoing efforts ofthe OIG to
                                   pursue cases involving procurement fraud and practices which
                                   threaten the integrity of the Government's procurement process.
                                   Highlights of selected cases follow.

                                   $3.2 Million in Civil Settlements with ADP Suppliers
                                   The Government entered into settlement agreements with four
                                   companies supplying computer hardware, computer software, and
                                   related items. The companies agreed to pay the Government over
                                   $3.2 million to settle their potential civil liability under the False
                                   Claims Act.

                                   ..   Under the terms of the first agreement, a computer software
                                        supplier agreed to pay $1,725,000 to settle a qui tam action under
                                        the False Claims Act. The qui tam provision in the False Claims Act
                                        allows individuals to bring suit, on behalf of themselves and the
                                        Federal Government, against contractors who submit false claims
                                        or false statements to the Government. An OIG audit and
                                        investigation disclosed that the company had failed to provide
                                        current, accurate, and complete discount and pricing information
                                        during the negotiation of several Multiple Award Schedule
                                        contracts. Also, the finn failed to report price reductions, and failed
                                        to disclose rebates given to resellers and distributors as required by
                                        the contract.

                                   ..   The second agreement provided that a supplier of computer
                                        equipment and software under two Multiple Award Schedule
                                        contracts pay the Government $845,500 to settle its potential civil
                                        liability. The agreement arose out of an audit and investigation that
                                        showed the company had failed to accurately provide required
                                        infonnation to GSA contract negotiators and had failed to pass on
                                        price reductions given to commercial customers.

                                   ..   The third agreement prOVided that a company that supplied
                                        computer furniture under two Multiple Award Schedule contracts
                                        would pay the Government $369,856.98. OIG reviews showed the
                                        company had granted higher discounts to its commercial
                                        customers than disclosed to GSA during contract negotiations.
                                        GSA contract offlcials relied on these data and, as a result, the
                                        company secured inflated prices from Federal purchasers.

                                   ..   The fourth agreement resultcd from a second qui tam action and
                                        provided that a computer equipment supplier would pay $300,000
                                        to settle an action brought under the False Claims Act. An OIG



2   Semiannual Report To The Congress
Procurement Activities

     audit and investigation disclosed that the company had failed to
     comply with contract provisions requiring delivery of new
     equipment unless the customer was informed that other than
     new equipment was being provided. This case was settled on
     December 17, 1993, and was not included in our previous
     Semiannual Report to the Congress because the matter was still
     under seal. The seal has now been partially lifted.

 Chemical Supplier Agrees to Pay $175,000
 In another significant case, on May 24, 1994, a chemical supply
 company entered into a settlement agreement with the Government to
 pay $175,000 to settle its potential civil liability under the False Claims
 Act for supplying adulterated paint and returning contaminated raw
 materials to GSA.

 The agreement resulted from an investigation which disclosed that the
 firm defrauded the Government through a settlement claim on a
 contract awarded for military camouflage paint. The Government
 terminated its contract with the company after the U.S. Army changed
 its specifications for camouflage paint. The company then filed a claim
 for reimbursement for paint pigment it had purchased to manufacture
 the camouflage paint that could not be used in producing other paints.

 1be investigation determined that the company received $28,776 from
 GSA for the returned paint pigment which had been contaminated in a
 fire 2 years before the contract was awarded and did not qualifY for the
 settlement claim. Further, during the course of the contract, the
 company had supplied substandard camouflage paint to GSA and the
 military. GSA paid the company $45,000 for this paint which was
 manufactured with the defective raw materials. Debarment action is
 under consideration.

 Fraud Convictions
 During June and August 1994, three officials of a fictitious insurance
 company pled guilty to conspiring to defraud numerous local, State,
 and Federal Government agencies, including GSA. Sentencing is
 scheduled for October 1994.

 Ajoint investigation by GSA, the Small Business Administration, and
 the Departments of Defense, Energy, Transportation, and Veterans
 Affairs OIGs was initiated after it was reported to the GSA OIG that the
 three officials were involved in a scheme to defraud Government
 agencies by issuing fraudulent bonding documents to contracting firms
 doing business with the Federal Government.

 The investigation disclosed that the officials had formed a fictitious
 surety company and sold false bid and performance bonds to various
 contractors. Bid and performance bonds are required by Government



                                               Office of Inspector General 3
                                Procurement Activities

                                   agencies to ensure good faith bids and for insurance in case of
                                   contractor default. Despite a court-issued cease and desist order, the
                                   officials continued their illegal practices and issued bogus bond
                                   instruments. 111ey then incorporated a fictitious insurance and
                                   bonding corporation with a name similar to a legitimate company.

                                   The investigators found that the company issued numerous bogus bid
                                   and performance bonds on contracts involving the Departments of
                                   Transportation, Defense, and Veterans Affairs. The company issued a
                                   total of 76 bogus bonds amounting to over $12 million to 12 different
                                   construction companies.

                                   While none of the contractors defaulted on their contracts, the
                                   Government agencies were placed at risk of being unable to recover
                                   their costs if the contractors had failed to perform and the Government
                                   attempted to recover from the insurance company. In addition, the
                                   activities of the company prevented legitimate insurance companies
                                   from competitively pursuing business opportunities with the
                                   Government agencies.

                                   Multiple Award Schedule Pilot Project
                                   As a National Performance Review reinvention project in the field of
                                   procurement, GSA established the Multiple Award Schedule (MAS) Pilot
                                   Project for the acquisition of computer software products. MAS
                                   contracts are master agreements that GSA enters into with vendors of
                                   commercial items in which GSA uses the volume purchasing power of
                                   the Government to obtain favorable prices and establishes ordering
                                   agreements which any Federal agency can use to efficiently acquire
                                   commonly used products. The objectives of the Pilot were to streamline
                                   the procurement solicitation, evaluation, and award processes for the
                                   Government and vendors, and offer customer agencies a wider range of
                                   choice in products, while ensuring that product pricing remained fair
                                   and reasonable. The OIG is evaluating the Pilot as it proceeds.

                                   For the first time, vendors participating in the program were required
                                   to offer their complete product lines and offer them both in single user
                                   format (commonly referred to as shrink-wrap) and multi-user format
                                   (usually called right-to-copy or multi-pack). The right-to-copy format
                                   provides the customer authorization to permit a specified number of
                                   copies of the software to be used at the same time. Users share
                                   reference materials and other support services. This method of
                                   purchase, on a per user basis, is significantly less costly than buying in
                                   the single user shrink-wrap format.

                                   To encourage users to purchase under the right-to-copy method, GSA
                                   contracting officers pressed for favorable prices for these items. GSA
                                   also restricted an agency order limitation on shrink-wrap purchases to
                                   nine copies. This decision proved controversial. To address the issue,
                                   the Agency followed a recommendation made by the Federal


4   Semiannual Report To The Congress
Procurement Activities

 Information Technology Acquisition Improvement Team and issued a
 contract modification increasing the maximum order limitation (MOL)
 to $50,000 per order. However, GSA did not renegotiate to lower
 shrink-wrap prices to account for an increased volume.

 Our comparison of prices for a sample of 464 shrink-wrap software
 packages in the Pilot contracts with prices for identical packages in last
 year's contracts showed that 356, or 76.7 percent, were higher under
 the Pilot. In some cases, prices were even higher than retail prices.
 Therefore, increasing the MOL to $50,000 for shrink-wrap packages
 without price renegotiations can potentially cost customer agencies
 thousands of dollars for software products.

 Our analyses of schedule and market prices, the consequences of the
 lack of renegotiations, and the statement of Findings and
 Determinations in support of increasing the shrink-wrap MOL showed
 that prices for shrink-wrap packages were not fair and reasonable. In
 our report, we advised the Commissioner to immediately alert Federal
 agencies to the fact that MAS shrink-wrap prices were unreasonable
 and that agencies should seek lower prices. We suggested that the
 Commissioner evaluate the legality and feasibility of tenninating the
 shrink-wrap portion of the contracts that were modified to increase the
 MOL to $50,000. If pursuing this course of action would result in
 minimal disruption and potential savings to the customer agencies,
 then the shrink-wrap portion of the contracts should be terminated.

 Since our report was issued on September 26, 1994, GSA management
 had not responded by the September 30, 1994 closing date for this
 reporting period.

 Purchase of Telecommunications Services Contracts
 GSA awards contracts which enable Federal agencies to buy telephone
 equipment and related services at predetermined rates. These Purchase
 of Telecommunications Services (POTS) contracts offer new or used
 telephone equipment, including installation, maintenance, and repair
 services. Other services such as system planning, site preparation, and
 training are also available. If desired, agencies have the option to obtain
 equipment and services through alternative sources.

 An OIG audit in one region found that the contractors' performance
 was being adequately monitored, and that customers were satisfied
 with the services delivered. However, the current contracts may not
 provide the best value to customer agencies. For example, contractors
 were not required to provide technologically advanced products. In
 addition, other Government contracts offer similar or more state of the
 art telecommunications systems at better prices. As a result, Federal
 customers, who rely on the contracts to be cost effective without
 comparing alternatives, may be incurring unnecessary expenses or
 buying dated equipment. Also, because POTS contracts were


                                               Office of Inspector General 5
                                Procurement Activities

                                   established for large geographic areas, the contractors have used
                                   subcontractors to meet requirements, resulting in additional costs.

                                   Finally, the POTS contracts are not mandatory contracts and agencies
                                   can order equipment from other Government contracts or order
                                   equipment and services from commercial companies. While the POTS
                                   contracts offer one-stop purchasing, the other Government contracts
                                   require customers to obtain wiring, maintenance, and repair services
                                   separately. We believe the POTS contracts must offer current
                                   technology at cost effective prices to customers to remain viable
                                   contracts.

                                   The June 15, 1994 report recommended that the Acting Regional
                                   Administrator:

                                   •    Inform users of the options available to them for
                                        telecommunications needs.

                                   •    Change specifications to allow contractors to offer technologically
                                        advanced telecommunications equipment.

                                   •    Evaluate alternatives for contracting to determine whether any
                                        other methods would be more effective.

                                   Responsive action plans were provided for implementing the report
                                   recommendations.

                                   Bribery Conviction
                                   An OIG investigation resulted in the conviction of a GSA employee for
                                   soliCiting and receiving bribes from a GSA contractor. The investigation
                                   was initiated after the FBI reported to the OIG that a GSA employee
                                   had solieited a $25,000 bribe from a construction contractor
                                   renovating a sewage treatment plant at a Federal facility.

                                   The investigation determined that the employee solieited $25,000 and
                                   accepted an initial $5,000 cash payment from the GSA contractor. In
                                   return, the employee was to provide information which would enable
                                   the contractor to submit fraudulent payment claims to GSA in
                                   connection with the renovation. Also, the employee promised to furnish
                                   the contractor with sensitive information concerning an ongoing
                                   contract dispute the contractor was having with GSA concerning his
                                   performance on the project.

                                   The contractor, cooperating with special agents, participated in a
                                   meeting during which the employee accepted an additional
                                   $5,000 bribe. The GSA employee was then arrested and charged with
                                   violation of bribery laws.




6   Semiannual Report To The Congress
Procurement Activities

 The GSA employee subsequently pled guilty. He was sentenced in U.S.
 District Court to 15 months in prison. 3 years probation. and ordered
 to pay a $5,000 fine and $5,000 in restitution for soliciting and
 receiving a bribe from a contractor doing business with GSA.

 The GSA employee was terminated from employment with the Agency.
 Also, debarment action, which would preclude him from employment
 on Federally funded construction projects, is pending. The contractor is
 continuing to negotiate a settlement with GSA officials concerning the
 contract dispute and his performance on the project.




                                             Office of Inspector General 7
                                   Agency Operations


Significant OIG                    Real Property Sales
                                   GSA disposes of surplus real property for other Federal agencies on an
Accomplishments                    actual cost reimbursable basis. In Fiscal Year 1993. the Agency sold
                                   over $33 million in real estate and billed other agencies for related
                                   preparation, sales, and disposal services. This period, we audited the
                                   process for collecting actual cost data and billing customer agencies.

                                   Our evaluation revealed that GSA was not recovering all service related
                                   disposal costs and that existing accounting systems did not have the
                                   ability to accumulate costs on a project by project basis. For example,
                                   supervisory and clerical hours as well as travel time were not always
                                   billed, and overhead rates were understated. Also, realty specialists
                                   had to maintain manual records of expenses and hours worked by
                                   property account so that reconciliations could be made with
                                   accounting record totals. The reconciliations took time and often were
                                   incomplete.

                                   Finally, the review disclosed that two operating changes were needed to
                                   strengthen financial controls. One change involved having
                                   reimbursable funds sent directly to the finance office in lieu of
                                   remitting directly to the billing office. The other change involved
                                   establishing cost reimbursement ceilings with all customer agencies.

                                   The April 13, 1994 report recommended that the Acting Deputy
                                   Commissioner, Federal Property Resources Service:

                                   •    Develop a labor distribution system for labor and other costs and
                                        calculate new overhead rates.

                                   •    Work with finance officials to modifY the accounting system so that
                                        costs can be tracked by project.

                                   ..   Make changes needed to strengthen financial controL

                                   Responsive action plans were provided for implementing the report
                                   recommendations.

                                   Maintenance Control Center Operations
                                   GSA currently operates nine maintenance control centers to provide
                                   customer agencies a single point of contact for diagnosing automotive
                                   problems and procuring maintenance and repairs from commercial
                                   vendors. In Fiscal Year 1993, the centers processed nearly
                                   640,000 invoices totaling over $74 million in automotive maintenance
                                   and repairs. The OIG reviewed maintenance control center operations
                                   to determine if they could be improved and if the current number of
                                   centers represents an efficient use of resources.




8   Semiannual Report To The Congress
Agency                erations

The review found that the centers used a costly and labor-intensive
method to process nearly 250,000 vendor invoices for routine
maintenance and minor repairs costing under $50. The centers expend
significant resources to record this maintenance and repair information
in the data base. We believe the data is of questionable value for
decisions regarding future vehicle maintenance. Also, we found that all
data base entries were made manually, although some vendors and
agencies can provide automated information.

Our analysis revealed imbalances in the per capita workload among the
maintenance control centers. Centers with the fewest employees
managed the greatest number of vehicles, processed the highest
number of invoices, and serviced more clients with a larger vendor
base. Considering this imbalance and the possibilities for increased
efficiency through automation and expanding the use of credit cards,
we believe that GSA should examine consolidating these centers.

The September 20, 1994 report recommended that the Commissioner,
Federal Supply Service:

..   Implement cost-effective alternative payment procedures for
     transactions under $50.

..   Allow use of credit cards for routine automotive maintenance and
     repairs and work with contractors to prOvide automated vehicle
     maintenance repair data.

..   Record in the Fleet Management System data base only information
     needed for future vehicle maintenance and repair decisions.

..   Determine what agencies have automated systems which can
     identify needed automotive maintenance and repair information
     and work with them to have this information automatically
     transferred to GSA.

..   Streamline the maintenance control center operational structure by
     consolidating locations.

The Commissioner agreed with the recommendations in the report. The
audit is still in the resolution process.

Federal Computer Acquisition Center
We evaluated the management and financial control systems for
opcrations at the Federal Computer Acquisition Center. The Center
performs large scale computer acquisitions valued at over $100 million
for other Federal agencies under reimbursable agreements. Services
include consultation, system specification development, proposal
development and evaluation, contract negotiations, and contract
award.


                                             Offlce of Inspector General 9
                                 Agency Operations

                                 At the time of our review, the Center was processing six acquisitions
                                 with a total estimated cost of over $2 billion.

                                 The review pOinted out that the Center had not established an
                                 adequate system of management and financial controls. Controls
                                 should be strengthened in planning and monitoring the Center's
                                 procurement projects, as well as recording and reporting costs of each
                                 phase of the project. The Center needs to implement a project
                                 monitoring system which would help identify what has to be done to
                                 stay on the planned schedule and within the estimated cost. Financial
                                 controls could be improved by estimating costs more accurately and
                                 monitoring actual costs for each project phase.

                                 We also noted that the Center needs to fully implement GSA policies
                                 and procedures for the security of its automated information systems.
                                 Such an improvement would ensure that the computer-processed data
                                 is reliable and sensitive information is secure.

                                 The April 6, 1994 report included recommendations that the Assistant
                                 Commissioner, Office of Technical Assistance:

                                 ..    Develop a system of management and financial controls.

                                 ..    Ensure that the Center implements GSA's automated information
                                       security policies and procedures.

                                 Responsive action plans were prOvided for implementing the report
                                 recommendations.

                                 Administrative Support Services
                                 GSA provides various administrative support services to its program
                                 activities through a centralized reimbursable program. The program
                                 provides accounting, payroll, personnel, legal, and graphic support
                                 services. These activities were directly funded until Fiscal Year 1991
                                 when Congress authorized the reimbursable program so that the cost
                                 of these services would be recovered from the benefitting GSA offices.

                                 An OIG review found that, while the reimbursable program was
                                 operating in accordance with enabling legislation, improvements were
                                 needed in several areas. We identified two offices whose operating costs
                                 should be funded by direct appropriation rather than through the
                                 reimbursable program. As a result, GSA offices incurred approximately
                                 $1.2 million in costs annually for services for which they received little
                                 or no specific benefit. GSA officials have since taken corrective action to
                                 include the costs of these offices in the appropriated funding requests.

                                 Some improvements in the allocation process would also provide more
                                 accurate charges to customer offices. For example, the workload
                                 statistics used to distribute the reimbursable costs did not accurately


10 Semiannual Report To The Congress
Agency Operations

reflect the number of personnel that provided dedicated services.
Consequently, the benefitting offices were not fully assessed, while
others were overassessed, for the services they received. Also, the
allocation methodology did not provide for adjustments due to budget
revisions or actual program expenditures.

We found that revisions to fund accounts made near the end of the
quarter need to be received on time so that managers have accurate
information on the status of their account balances. Officials indicated
that these revisions are now being sent via facsimile or overnight mail
to ensure timeliness. Finally, we believe that customer oversight by
serviced offices would potentially reduce program costs, as well as
ensure quality services.

The May 19, 1994 report included recommendations that the Associate
Administrator for Management Services and Human Resources and/or
the Chief Financial Officer:

..   Ensure that dedicated staff are appropriately reflected in the
     workload statistics.

..   Adjust assessments based upon budget and actual expenditures.

..   Establish an independent oversight body to monitor the activities of
     the reimbursable program.

The Office of Management Services and Human Resources and Office of
the Chief Financial Officer generally agreed with the recommendations
in the report. The audit is still in the resolution process.

Real Estate Management
GSA provides space for Federal employees in Government-owned and
leased buildings. GSA is responsible for the construction of new Federal
buildings as well as the repair and alteration of existing buildings. This
period we examined the repair and alteration (R&A) program's
inventory of work items in one region. These work items ranged from
initial space alteration to repairs and improvements.

Our review pointed out that GSA could develop a more comprehensive
plan for completing identified R&A projects. GSA should set a time
frame for completion of each project, and assess the relative benefits
and priorities of all projects especially where the safety or integrity of a
building is a concern. GSA also needs to adequately document the
reasons why certain R&A projects were scheduled ahead of others
which appeared to be more critical.

In addition, GSA needs to maintain accurate data bases for tracking
R&A projects. For example, the status of work items in the R&A
tracking system was inconsistent with those in the safety and


                                               OfIice of Inspector General   11
                                 Agency                  erations

                                 environmental management system. As a result, projects may not be
                                 accomplished in an efficient manner. Also, 7 building engineering
                                 reports that detailed work needed on 30 buildings were never entered
                                 into the R&A tracking system. Many of the work items had estimated
                                 construction costs over $10,000 and should have been entered into the
                                 tracking system.

                                 Finally, we found that the building inspection program needs to be
                                 strengthened. Buildings which are not GSA's responsibility should be
                                 omitted from the inspection schedule. Also, all inspections should be
                                 performed within the time frame specified in existing procedures. With
                                 these improvements, needed R&A projects should be identified in a
                                 timely manner.

                                 The June 20, 1994 report included recommendations that the Regional
                                 Administrator:

                                 ..    IdentifY and enter into the data base all work items needing to be
                                       done and assign a priority to each.

                                 ..    Validate the R&A tracking system to ensure that data regarding
                                       work items is complete, accurate, and current.

                                 ..    Revise the building inspection schedule to include only buildings
                                       for which GSA is responsible.

                                 ..    Schedule and perform building inspections within the time frame
                                       outlined.

                                 The Regional Administrator generally agreed with the
                                 recommendations in the report. The audit is still in the resolution
                                 process.




12 Semiannual Report To The Congress
                       Prevention Activities

                       The OIG's preaward audit program provides information to contracting
Significant Preaward   officers for use in negotiating contracts. The pre-decisional, advisory
Audits                 nature of pre award audits distinguishes them from other audits. This
                       program provides vital and current information to contracting officers,
                       enabling them to signiflcantly improve the Government's negotiating
                       position. This period, the OIG performed preaward audits of
                       168 contracts with an estimated value of$1.9 billion. The audit reports
                       contained over $128 million in financial recommendations.

                       Multiple Award Schedule Contracts
                       This period, we audited three of the more significant Multiple Award
                       Schedule contracts which had estimated Governmentwide sales
                       totaling over $116 million. Based on our findings, the auditors
                       recommended that over $18 million in funds be put to better use.

                       The OIG evaluated discount schedule and marketing data submitted in
                       response to GSA's solicitations for the purchase of learning systems
                       and automatic data processing equipment, and for hardware and
                       software maintenance.

                       The auditors found common problems among the audits. Companies
                       were offering commercial customers and Federal agencies better pricing
                       than offered to GSA. Also, the companies either did not disclose the full
                       extent of higher discounts granted to other customers or did not
                       provide adequate justification for not offering the higher discounts to
                       GSA.

                       Other Contracts
                       The orG performed three significant audits involving proposals for
                       telecommunications services, software and support services, and for
                       the computation of a real estate tax obligation. The three audits
                       reviewed amounts of over $89 million and recommended adjustments
                       of more than $10 million.

                       ..   The orG audited a change order proposal for work related to the
                            FfS2000 telephone system. We advised the contracting officer that
                            adequate cost or pricing data was not submitted. The audit revealed
                            that the company did not adequately support its proposed direct
                            labor charges.

                       It   The orG audited a cost or pricing data proposal for ADP software
                            and support services. We advised the contracting officer that the
                            contract should not be awarded until the firm implements an
                            accounting system which adequately accumulates and segregates
                            costs. The audit revealed that the firm's accounting system could
                            not support its proposed overhead, general and administrative, or
                            indirect handling rates.




                                                                   Office of Inspeetor General   13
                                 Prevention Activities

                                   •     The OIG reviewed a county's real estate tax assessment for two
                                         Federal properties, We found that the county overstated the real
                                         estate tax obligation.

Integrity Awareness                Integrity Awareness Briefings comprise the ~iG's primary vehicle for
                                   educating employees on their responsibilities for the prevention of
                                   fraud and abuse, and for reinforcing employees' roles in helping to
                                   ensure the integrity of Agency operations.

                                   This period, we presented 24 briefings which were attended by
                                   785 regional employees. These briefings explain the statutory mission
                                   of the OIG and the methods available for reporting suspected instances
                                   of wrongdoing. In addition, through case studies and slides, the
                                   briefings expose GSA employees to actual instances of fraud in GSA
                                   and other Federal agencies.

                                   The ~iG's program for reviewing leases prior to award provides
Advisory Lease                     front -end assurance that GSA is adhering to regulations and
Reviews                            procedures before awarding selected leases exceeding established
                                   thresholds.

                                   These reviews, although advisory in nature, promote opportunitics for
                                   economy and efficiency in the leasing area, and the avoidance of
                                   problems before they occur.
                                                                               ",
                                   This period we received 28 lease proposals for review and completed
                                   9 audits. Three of the proposals reviewed had deficiencies. The Agency
                                   has identified the leasing program for evalrtation as a nationwide
                                   reinvention project. We are cooperating with management in this
                                   endeavor as leasing practices are studied in several regional locations.

                                   The Hotline is another part of our prevention program. It provides an
Hotline                            avenue for concerned employees to report suspected wrongdoing.
                                   Hotline posters located in GSA-controlled buildings, as well as Hotline
                                   brochures, encourage employees to use the Hotline.

                                   During this reporting period, we received 145 Hotline calls and letters.
                                   Of these, 103 complaints warranted further action. We also received
                                   1 referral from GAO and 25 referrals from other agencies; 11 of these
                                   referrals required further action.

                                   The OIG performs independent reviews of implementation actions, on a
Implementation                     test basis, to ensure that management's corrective actions are being
Reviews                            accomplished according to established milestones. This period, the OIG
                                   performed 4 implementation reviews. In each of these cases,
                                   management was successfully implementing the recommendations.




14   Semiannual Report To The Congress
Review of Legislation and                       gulations

         Pursuant to the Inspector General Act oj 1978, the GIG is required to
         review existing and proposed legislation and regulations to detennine
         their effect on the economy and efficiency oJ the Agency's programs and
         operations and on the prevention and detection ojJraud and abuse.

         During this period, the OIG reviewed 342 legislative matters and
         46 proposed regulations and directives. The OIG provided significant
         comments on the following legislative items:

         ..   S. 1587, The Federal Acquisition Streamlining Act of 1994.
              Section 6102, Wbistleblower Provisions. We supported protection
              for those individuals who assist the Government in detecting
              violations of law with respect to Government contracts. However, we
              expressed concern regarding the potential for conflict with the qui
              tam provisions of the False Claims Act and questioned the
              effectiveness of the relief offered. The qui tam provisions allow
              individuals to bring suit, on behalf of themselves and the Federal
              Government, against contractors who submit false claims or false
              statements to the Government. We opposed the provision requiring
              the Offices of Inspector General to report to the contractor and
              others the results of whistleblower investigations. Such a reporting
              mechanism could severely hamper an ongoing investigation
              involving whistleblowers who also support allegations in qui tam
              actions and could violate the seal requirements in those actions. We
              also commented that the monetary recovery allowed the
              whistleblowers in terms of back pay and benefits provided little
              incentive for contractor employees to report problems and incur
              those costs. We recommended, instead, that contractor employees
              who assist the Government in qui tam actions and suffer reprisals
              be entitled to two times the amount of back pay and other costs.

         ..   Federal Acquisition Regulation Rewrite. On two separate
              occasions we commented on the proposal to simplify and
              streamline the Federal Acquisition Regulation (FAR). We supplied
              comments relating to the principles around which the FAR would
              be written. Converting firm regulations into gUiding principles may
              decrease the certainty and uniformity the contracting community
              has come to expect in the Government procurement process. We
              recommended that the success of the acquisition system also be
              measured by the reduction in, and reasonableness of, the prices
              obtained for products and services on a best value received basis.
              We supported the proposals for the training and professional
              development of Government contracting personnel. We also
              supported the proposal for the consideration of a contractor's past
              performance in making procurement decisions. We expressed some
              concern over the interplay of the latter proposal with administrative
              provisions related to suspension and debarment.

              We also commented on two alternative approaches to rewriting the
              FAR. We endorsed the approach which would consist of a FAR


                                                      Office of Inspector General   15
               Review of Legislation and Regulations

                                       containing only mandatory provisions, a nonmandatory
                                       Governmentwide acquisition manual, and individual agency
                                       supplements to both. We commented that this approach would
                                       involve a less radical change of the current FAR system and would
                                       allow agencies to retain their FAR supplements, which allow
                                       agencies the flexibility and discretion to promulgate regulations
                                       necessary for their unique procurement programs. We cautioned
                                       against eliminating necessary contractor certifications as they serve
                                       to reduce burdensome paperwork requirements and protect the
                                       integrity of the procurement process.

                                 ..    Proposal to Convert the GSA's Federal Supply Schedule
                                       Program to an Industrial Fund. We provided comments to the
                                       Federal Supply Service's Office of Commodity Management
                                       regarding its proposal to operate the Federal Supply Schedule
                                       program as an industrial fund by charging customer agencies user
                                       fees. Initially, we recommended that the funding model not be fully
                                       implemented until 1999 as all current Federal Supply Service
                                       contract periods would have expired by that time. We noted that
                                       procedures for implementing industrial funding had not yet been
                                       established and that these procedures would be key to ensuring the
                                       program's sound and efficient operation. We remarked specifically
                                       on the importance of establishing procedures to 1) verifY schedule
                                       orders, 2) verifY the receipt of items by client agencies, and
                                       3) authorize offsets against payments to vendors and encourage
                                       dispute resolution mechanisms; Finally, we commented that
                                       consideration should be given to how the proposed 1 percent
                                       discount would be computed where defective pricing or price
                                       reductions are subsequently discovered on Multiple Award
                                       Schedule contracts.

                                 ..    H.R. 4679. The Inspector General Reform Act of 1994. We made
                                       extensive comments regarding the proposals in this piece of
                                       legislation as it deals directly with the authority, mission,
                                       responsibility, and function of the entire Inspector General
                                       community. We supported the portions of the bill that increase the
                                       independence and strengthen the operations of the Inspectors
                                       General. In particular, we endorsed the establishment of term
                                       limitations for Inspectors General, the removal of Inspectors
                                       General from the direct supervision of the agency heads, and a
                                       grant of authority to directly obtain space, services, and Senior
                                       Executive Service positions. Our section-by-section analysis also
                                       addressed those areas of the proposed legislation that we believe
                                       needed further clarification and consideration, including those
                                       provisions which would require more detailed reporting
                                       requirements on criminal cases, and which would mandate time
                                       limits on referrals of these cases to the Department of Justice.




16 Semiannual Report To The Congress
Review of Legislation and Regulations

         ..   H.R. 4680. Whistleblower Protection Enhancement Act of
              1994. We supported the general idea that whistleblowers should be
              afforded some additional protections. However, we expressed
              concerns that the proposed restrictions on disclosure of a
              whistleblower's identity are too constricting and would, in many
              cases, compromise the ~iG's ability to effectively pursue
              investigations. We also expressed concern about the proposed
              requirement that Inspectors General provide what amounts to
              individual legal advice to whistleblowers.

         ..   ADM 5450, Delegations of Authority. The proposed order would
              change GSA's system for the delegation of management authority
              by establishing a system for the delegation of authority by
              exception. While we supported improvements to the delegations
              system, we commented that the proposed order did not ensure
              against the inadvertent violation of mandated limitations and legal
              requirements. We suggested that the system should reflect a
              structure that would outline levels of delegation throughout GSA.
              We believe that without a structure to serve as a GSA management
              gUide, opportunities for misunderstandings, cross purpose of
              efforts, and loss of accountability may occur.

         ..   Amendment to 41 CFR Part 101-26. Selection of Sources of
              Supply for Personal Property. The amendment proposed
              eliminating Federal Supply Service schedules as mandatory sources
              of supply. AgenCies would be granted the authority to select the
              best source (GSA vs. open market) that results in the best value to
              the Federal Government. We did not support the amendment as
              proposed. We believe that making the use of Federal Supply Service
              schedules optional may result in the Federal Government losing
              some of its volume purchasing power in negotiations for schedule
              contracts and ultimately result in higher prices.




                                                     Office of Inspector General   17
        Statistical Summary of OIG Accomplishments

                                 Audit Reports Issued
                                 The OIG issued 241 audit reports, including 25 audits performed for
                                 the OIG by another agency. The 241 reports contained financial
                                 recommendations totaling $139,912,888, including $129,710,560 in
                                 recommendations that funds be put to better use and $10,202,328 in
                                 questioned costs. Due to GSA's mission of negotiating contracts for
                                 Governmentwide supplies and services, most of the recommended
                                 savings that funds be put to better use would be applicable to other
                                 Federal agencies.

                                 Management Decisions on Audit Reports
                                 Table 1 summmizes the status of the universe of audits requiring
                                 management decisions during this period, as well as the status of those
                                 audits as of September 30, 1994. Eight reports more than 6 months old
                                 were awaiting management decisions as of September 30, 1994; all of
                                 them were preaward audits which are not subject to the 6 month
                                 management decision requirement. Table 1 does not include 16 reports
                                 excluded from the management decision process because they pertain
                                 to ongoing investigations.



                  Table 1. Management Decisions on OIG Audits
                                                               Reports with             Total
                                                   No. of        Financial            Financial
                                                  Reports    Recommendations      Recommendations

 For which no management decision
 had been made as of 4/1/94
    Less than 6 months old                          83              63              $108,107,566
    More than 6 months old                          13              12                14,787,514
 Reports issued this period                        241             158               139,912,888
 TOTAL                                             337             233              $262,807,968
 For which a management decision
 was made during the reporting
 period
     Issued prior periods                           88              68              $119,614,772
     Issued current period                         138             ~                  33,992,334
 TOTAL                                             226             139              $153,607,106
 For which no management decision
 had been made as of 9/30/94
     Less than 6 months old                         103             87              $105,920,554
     More than 6 months old                                                            3,280,308
 TOTAL                                             III              94              $109,200,862




18 Semiannual Report To The Congress
        Statistical Summary of OIG Accomplishments

                                   Management Decisions on Audit Reports With Financial
                                   Recommendations
                                   Tables 2 and 3 present the audits identified in Table 1 as containing
                                   financial recommendations by category (funds to be put to better use or
                                   questioned costs).


              Table 2. Management Decisions on OIG Audits with
              Recommendations that Funds be Put To Better Use
                                                                No. of                  Financial
                                                               Reports              Recommendations

 For which no management decision had
 been made as of 4/ 1 /94
    Less than 6 months old                                         52                   $ 106,735,145
    More than 6 months old                                          4                      12,644,802
 Reports issued this period                                       140                     129,710,560
 TOTAL                                                            196                   $249.090,507
 For which a management decision was
 made during the reporting period
     Recommendations agreed to by
     management based on proposed
     • management action                                                                $ 80,389,564
     • legislative action
     Recommendations not agreed to
     by management                                                                        62,740,958
 TOTAL                                                            110                   $143,130,522*
 For which no management decision had
 been made as of 9/30/94
     Less than 6 months old                                        80                   $ 102,765,043
     More than 6 months old                                        ~                        3,280,308
 TOTAL                                                             86                   $106,045,351

* Includes $85,366 that management decided to seek that exceeded recommended amounts.




                                                                                Office of Inspector General   19
         Statistical Summary of OIG Accomplishments


                        Table 3. Management Decisions on OIG
                            Audits with Questioned Costs
                                                       No. of           Questioned           Unsupported
                                                      Reports             Costs                 Costs
 For which no management decision
 had been made as of 4/1/94
     Less than 6 months old                              11        $     1,372,421                $-
     More than 6 months old                               8              2,142,712
 Reports issued this period                              19             10,202,328
 TOTAL                                                  38          $13,717,461                   $-
 For which a management decision
 was made during the reporting
 period
       Disallowed costs                                             $   8,363,314*                $-
       Costs not disallowed                                             2,198,636
 TOTAL                                                  30          $10,561,950                   $-
 For which no management decision
 had been made as of 9/30/94
       Less than 6 months old                             8        $    3,155,511                 $-
       More than 6 months old                            ~                       o
 TOTAL                                                    8        $ 3,155,511                    $-

 * $3,165,243 oj this amount was   recovered in civil settlements, as reported in Table 5.




                                   Investigative Workload
                                   The OIG opened 97 investigative cases and closed 98 cases. In
                                   addition, the OIG received and evaluated 71 complaints and allegations
                                   from sources other than the Hotline that involved GSA employees and
                                   programs. Based upon our analyses of these complaints and
                                   allegations, OIG investigations were not warranted.




20   Semiannual Report To The Congress
Statistical Summary of OIG Accomplishments

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA
                                       offIcials on certain cases disclosing wrongdoing on the part of GSA
                                       employees, contractors, or private individuals doing business with the
                                       Government.



                          Table 4. Summary of OIG Referrals
  Type of Referral                                             Cases                      Subjects
  " . _ - - - - - - - - - - - - _ ..                             -----------~




     Criminal                                                    20                           57
     Civil                                                        7                           16
     Administrative                                              42                           95
     TOTAL                                                       69                          168

                                       In addition, the OIG made 36 referrals to GSA officials for informational
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 12 cases (38 subjects) were
                                       accepted for criminal prosecution and 6 cases (11 subjects) were
                                       accepted for civil litigation. Criminal cases originating from OIG
                                       referrals resulted in 27 indictments/informations and 13 successful
                                       prosecutions. OIG civil referrals resulted in 7 case settlements
                                       (involving 12 subjects) and 2 judgments. Based on OIG administrative
                                       referrals, management debarred 46 contractors, suspended
                                       8 contractors, and took 10 personnel actions against employees.




                                                                                   OfTicc of Inspector General 21
         Statistical Summary of OIG Accomplishments

                                   Monetary Results
                                   Table 5 presents the amounts determined to be owed the Government
                                   as a result of criminal and civil actions. The amounts do not
                                   necessarily reflect actual monetary recoveries.

                                   In addition, the OIG identified for recovery $13,781,416 in money
                                   and/or property and $69,000 in investigative savings during the course
                                   of its investigations.



                          Table 5. Criminal and Civil Recoveries
                                                      Criminal                        Civil

           Fines and Penalties                         $ 7,650                   $
           Settlements or Judgments                                                  3,718,357*
           Restitutions                                  45,273                        -

           TOTAL                                       $52,923                   $3,718.357
 *This amount includes $3,165,243 reportable pursuant to section 5(a}(8) oj the Inspector General Act as
 management decisions to disallow costs. See Table 3.




22   Semiannual Report To The Congress
Appendices
       Appendix /- Significant Audits From Prior Reports

Under the Agency's audit management decision process,           The remaining recommendation involves maximizing the
GSA's Office of Management Services and Human                   use of direct delivery. It is scheduled for completion by
Resources, Office of Management Controls and Evaluation,        January 31, 1995.
is responsible for tracking implementation of audit recom-
mendations after a management decision has been                 Distribution Centers
reached. That office furnished the follOwing status infor-
mation.                                                         Period First Reported: October 1, 1993 to March 31,
                                                                1994
Seventeen audits highlighted in prior Reports to the
Congress have not yet been fully implemented; all are           The review identified opportunities for improvement in
being implemented in accordance with currently estab-           inventory management at a wholesale distribution cen-
lished milestones.                                              ter. The report contained 16 recommendations; 14 have
                                                                been implemented.
Federal Protective Service
                                                                One of the remaining recommendations involves the imple-
Period First Reported: October 1, 1993 to March 31,
                                                                mentation of stock locator software. It is scheduled for
1994                                                            completion by October 31, 1994. The other remaining
The review found that GSA needed to strengthen its con-         recommendation involves improvements to stock selec-
trol over firearms and improve internal security. The report    tion accuracy. All actions related to the implementation
contained 14 recommendations; 12 have been imple-               have been completed except for a follow-up review. It is
mented.                                                         scheduled for completion by December 31, 1994.

The two remaining recommendations involve a plan for            Management Information System Reports
the efficient operation of the control centers and vehicle
downsizing. Although the two remailling actions are sched-      Period First Reported: October 1, 1993 to March 31,
uled for completion by October 31,1994, revised actions         1994
are being considered. The final action, which is the
                                                                The review disclosed that the vendor did not provide a
regional management follow-up review, is scheduled for
completion by March 31, 1995.                                   totally automated management information system as
                                                                required by the contract. The report contained two rec-
Lease Acquisition Program                                       ommendations; one has been implemented.
Period First Reported: October 1, 1993 to March 31,             The remaining recommendation involves seeking appro-
1994                                                            priate compensation from the contractor until reliable
                                                                and accurate data is supplied to GSA. It is scheduled for
The review recommended that GSA work with lessors to            completion by October 31, 1994.
encourage competition which will help reduce rental rates.
The report contained five recommendations; one recom-           Business Allocation
mendation was withdrawn and the remaining four have
been implemented.                                               Period Ji'irst Reported: October 1, 1993 to March 31,
                                                                1994
The final action, which is the regional management fol-
low-up review, is scheduled for completion by                   The review focused on GSA's administration of the
October 31, 1994.                                               60 percent and 40 percent anticipated business alloca-
                                                                tion between two VrS2000 contractors. The report
Inventory Management                                            contained two recommendations; one has been imple-
Period First Reported: Odober 1, 1993 to March 31,              mented.
1994
                                                                The remaining recommendation involves determining
The review identified opportunities for savings in the inven-   what GSA's role in contractor revenue allocation will be
tory management of stock in depots. The report contained        in the future and stating it in future proposals. It is sched-
six recommendations; five have been implemented.                uled for completion by September 30, 1995.


                                                                                            Offlce of Inspector General    25
      Appendix /- Significant Audits From Prior Reports

Payments to Contractors and Billings to                       ing and maintaining their occupant emergency plans. It
                                                              is scheduled for completion by November 30, 1994.
Customer Agencies
Period First Reported: October 1, 1993 to March 31,           Local Telephone Service Program
1994
                                                              Period First Reported: April 1, 1993 to September 30,
The review identified opportunities to improve billing        1993
information provided to Federal agencies for FTS2000
telecommunications services. The report contained nine        The review disclosed the need to provide better service to
recommendations; eight have been implemented.                 Federal customers of the local telecommunications
                                                              program. The report included six recommendations; none
The remaining recommendation involves developing              have been implemented.
procedures to be used when individuals are in an acting
capacity and ensuring that adequate separation of duties      One of the recommendations involves using multi-year
exists. It is scheduled for completion by October 31, 1994.   rates to determine local telephone service. Two recom-
                                                              mendations involve comparing costs with telephone
Procurement Personnel Development                             services available from the private sector and identifYing
                                                              customers who should be provided service from another
Period First Reported: April 1, 1993 to September 30,
                                                              type of system. Three recommendations involve
1993
                                                              improving payment processing, rate agreements, and
'Ibis review advised management to streamline and update      management of toll calls. All recommendations are
its development programs for procurement personnel.           scheduled for completion by October 31, 1994.
1be report contained one recommendation; it has not yet
been implemented.                                             7 to 10 Digits Dialing Conversion
1ms recommendation involves improving the warranting,         Period First Reported: April 1, 1993 to September 30,
training, and certification programs. These improvements      1993
are scheduled for completion by December 31, 1994.
                                                              This review advised management to determine if interest
                                                              charges may be assessed due to an advance payment for
Occupant Emergency Plans                                      services not yet prOVided. The report contained seven
Period First Reporied: April 1, 1993 to September 30,         recommendations; six have been implemented.
1993
                                                              The remaining recommendation concerns determining if
The review identified the need to improve occupant emer-
                                                              the actions taken by employees warrant appropriate
gency plans to ensure the safety of people in Federal
                                                              administrative action. It is scheduled for completion by
buildings. The report contained three recommendations;
                                                              October 31, 1994. A management follow-up review is
one has been implemented.
                                                              scheduled for completion by November 30, 1994.
One of the remaining recommendations involves per-
forming arumal reviews of occupant emergency plans for        Vacant Space Management
multi-story buildings. A policy letter implementing the       Period First Reported: October 1, 1992 to March 31,
recommendation has been issued. A follow-up review to         1993
verifY that the annual reviews are being conducted is
scheduled for completion by December 31, 1994. The            This review revealed that GSA needed to improve its
other remaining recommendation requires instituting a         management of vacant space. The report contained five
training program to assist Federal agencies in develop-       recommendations; four have been implemented.




26 Semiannual Report To The Congress
      Appendix /- Significant Audits From Prior Reports

The remaining recommendation involves updating                contained one recommendation; it has not yet been imple-
assignment files and drawings with current data and           mented.
correcting reports. A follow-up review to ensure that
assignment files and drawings have been updated is            This recommendation involves establishing a working
scheduled for completion by October 31, 1994.                 group to develop a system for addressing identified issues
                                                              and to give attention to the Multiple Award Schedule pro-
Special Order Program for Tools                               gram concerns. An implementation plan is expected to
Period First Reporied: October 1, 1992 to March 31,           be issued by mid-November 1994.
1993
This review identified the need to improve the manage-
                                                              Transportation Audit Program
ment of the special order program for tools. The report       Period First Reported: October 1, 1991 to March 31,
contained nine recommendations; eight have been imple-        1992
mented.
                                                              This review revealed that document controls over bills
The remaining recommendation involves strengthening           sent to contractors needed strengthening. The report con-
controls over the processing of memoranda. All actions        tained four recommendations; three have been
related to the implementation of the recommendation           implemented.
have been completed except for the follow-up review. It is
scheduled for completion by October 31, 1994.                 The remaining recommendation involves the reinstitu-
                                                              tion of a quality assurance program with measurable
Employee Benefit Programs                                     performance standards for contractors, with tests of per-
Period First Reported: October 1, 1992 to March 31,           formance and follow-up action. It is scheduled for
1993                                                          completion by October 31, 1994.
This review found that the processing of health benefit
insurance transactions needed improvement. The report         Controls Over Receivables
contained two recommendations; one has been imple-            Period First Reported: October 1, 1991 to March 31 ,
mented.
                                                              1992
The remaining recommendation required a determina-            This review identified needed improvements to the billing
tion whether it would be cost beneficial to recover health    procedures and financial computer programs for receiv-
benefit insurance contributions for prior years and to take   ables. The report contained three recommendations; two
appropriate action based on that determination. While
                                                              have been implemented.
all pertinent actions have been taken on this recommen-
dation, it remains open until all recovery actions are
                                                              The last recommendation requires the development of a
completed.
                                                              computer program which allowed updates to multiple
                                                              bills automatically for the same customer. A reevaluation
Contract Workload Management
                                                              of this recommendation determined that the program
Period First Reported: April 1, 1992 to September 30,         should not be implemented because of its undesired effects
1992                                                          on records involving multiple funds using the same billing
This review revealed the need to develop a strategy for       office address code. A revised action plan is scheduled for
addressing procurement workload concerns. The report          implementation by November 1994.




                                                                                         Office of Inspector General   27
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

            (Note: Due to the pre-decisional nature oj some audits, the
           financial recommendations pertaining to these reports are not
            listed in this Appendix.)

PBS         INTERNAL AUDITS
04/12/94   A40325      Preaward Lease Review: U.S. District Court and U.S.
                       Marshal, Lease Number GS-01B(PEL)03893 NEG.

04/12/94   A43034      Preaward Lease Review: 1331PennsylvaniaAvenue, NW;
                       Washington, DC, Lease Number GS-11B-40085

04/22/94   A41530      Audit of Postaward Lease Administration: U.S.
                       Attorney's Office, 280 North High Street, Columbus,
                       Ohio, Lease Number GS-05B-15249, Region 5

04/29/94   A41815      Postaward Lease Audit: 500 South Ewing, St. Louis,
                       Missouri, Lease Number GS-06P-49099

04/29/94   A42125      Postaward Lease Review: Austin Building, Austin, Texas,
                       Lease Number GS-07B-13950

05/17/94   A42132      Audit of Federal Protective Service Division's Controls
                       Over Firearms, Region 7

05/18/94   A40921      Audit of the Federal Protective Service Division's
                       Controls Over Firearms and Ammunition, Region 3,
                       Philadelphia, PA

OS/24/94   A41504      Audit of Postaward Lease Administration: U.S. Secret
                       Service, 300 South Riverside Plaza, Chicago, Illinois,
                       Lease Number GS-05B-14867, Region 5

OS/26/94   A43035      Preaward Lease Review: Patrick Henry Building, Lease
                       Number GS-03B-5875

05/31/94   A43025      Postaward Lease Audit: One Lafayette Centre, Lease
                       Number GS-11B-30056

06/02/94   A42726      Review of Public Buildings Service, "Buildings in
                       Inventory" Performance Measure

06/20/94   A32453      Audit of Repair and Alteration Inventory, Region 10

06/23/94   A42425      Audit of Lease Administration, Phoenix Field Office,
                       Region 9



28 Semiannual Report To The Congress
                     Appendix // .... Audit Report
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

06/28/94   A42448      Postaward Lease Review: 1860 Howe Avenue,
                       Sacramento, California, Lease Number GS-09B-92093

06/30/94   A40631      Review of the Albany, New York Buildings Management
                       Field Office, Region 2

06/30/94   A40632      Review of the San Juan, Puerto Rico Buildings
                       Management I<leld Office, Region 2

06/30/94   A43026      Audit of Buildings Management Field Office, Lafayette
                       Field Office, Washington, DC

06/30/94   A43032      Audit of Controls Over the Conservation and Safeguarding
                       of GSA Owned Artwork

07/15/94   A40657      Pre award Lease Review: Ten Waterview Plaza,
                       Parsippany, New Jersey, Lease Number GS-02B-22789

07/22/94   A 10859     Audit of the Expenditure of Repair and Alteration
                       (Budget Activity 54) Funds at the Field Office Level,
                       Region 5

07/28/94   A43044      Preaward Lease Review: 201 West Service Road,
                       Chantilly, VA 22021, Lease Number GS-IIB-40 III

07/28/94   A43045      Preaward Lease Review: 600 West Service Road,
                       Chantilly, VA 22021, Lease Number GS-lIB-40112

08/05/94   A40662      Pre award Lease Review: 195 Montague Street,
                       Brooklyn, New York, Lease Number GS-02B-22794

08/16/94   A31525      Audit of Contract Award Practices, Design and
                       Construction Contracts Branch, Contracts Division,
                       Region 5

09/20/94   A40653      Audit of the Federal Protective Service Division Controls
                       Over Firearms and Ammunition

09/20/94   A41221      Audit of Firearms Inventory in Federal Protective Service
                       Division, Region 4

09/20/94   A43046      Preaward Lease Review: The Portals Building, 1250
                       Maryland Avenue, SW, Washington, DC 20024, Lease
                       Number GS-ll B-40114

09/26/94   A41216      Audit of GSA Owned Artwork, Region IV



                                                                                   Office of Inspector General   29
                    Appendix // .... Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   -------,   --~----




                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs


09/27/94   A41545      Audit of Controls Over the Conservation, Preservation
                       and Safeguarding of GSA Owned Art in Region 3

09/28/94   A43049      Preaward Lease Review: 7681 Boston Boulevard,
                       Building Number 8, Springfield, Virginia 22154, United
                       States Customs Service Data Center, Lease Number
                       GS-IIB-40129

09/29/94   A41210      Audit of Procurement Program, Memphis, TN Field Office,
                       Region 4

PBS         CONTRACT AUDITS
04/07/94   A41541      Preaward Audit of Architect and Engineering Services
                       Contract: C. H. Guernsey & Company, Solicitation
                       Number GS-07P-93-JUD-00 17

04/11/94   A43442      Preaward Audit of Change Order Proposal: Truland
                       Systems Corporation, a Subcontractor to George Hyman
                       Construction Company, Contract Number GS-11P-
                       90MKC0197

04/13/94   A40625      Audit of Claim for Equitable Adjustment: Applied Electric
                       Corporation, Contract Number GS-02P86CUC0096

04/13/94   A43444      Preaward Audit of Sole Source Contract: Security U .SA,
                       Inc., Solicitation Number GS-11P93MJC0071

04/21/94   A40326      Audit of Settlement Proposal: Jackson Construction
                       Company, Contract Number GS-02P-92-CUC-0032

04/21/94   A40621      Preaward Audit of Cost or Pricing Data: Linpro New York
                       Realty, Inc., Contract Number GS02P91 CUC0058

04/25/94   A41222      Pre award Audit of Small Business Administration 8(a)
                       Pricing Proposal: Paramount Contracting Company,
                       Solicitation Number GS-04P-94-EXC-0005

04/28/94   A40634      Preaward Audit of Cost or Pricing Data: Caribco
                       International, Corp., Solicitation Number GS-02P-93-
                       CUC-0091

04/29/94   A41822      Pre award Audit of Architect and Engineering Services
                       Contract: Dana Larson Roubal and Associates, Inc.,
                       Solicitation Number GS06P94GYC0024



30 Semiannual Report To The Congress
                    Appendix // . . . Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                -"~--.-   .. - - - - - - - -
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                            Title                              Better Use        Costs

05/03/94   A41544     Pre award Audit of Architect and Engineering Services
                      Contract: 3D/International, Inc., Solicitation Number
                      GS-07P-94-JUD-000 1

05/03/94   A42531     Pre award Audit of Cost or Pricing Data: Asian
                      Rehabilitation Services, Inc., Solicitation Number
                      GS-09P-93-KSC-O 116

05/04/94   A42533     Preaward Audit of Cost or Pricing Data: Dependable
                      Janitorial Service & Supply, Inc., Solicitation Number
                      GS-09P-94-KSC-0008

05/09/94   A42459     Pre award Audit of a Claim: North American
                      Construction Corporation, Contract Number GS05P-
                      90-GBC-0068

05/11/94   A42532     Preaward Audit of Change Order Proposal: The Weitz
                      Company, Inc., Contract Number GS-09P-91-KTC-O 101

05/17/94   A41236     Preaward Audit of Small Business Administration 8(A)
                      Pricing Proposal: Sunshine Construction and
                      Engineering, Incorporated, Solicitation Number GS-04P-
                      94-EXC-0008

05/17/94   A43465     Preaward Audit of Architect and Engineering Services
                      Contract: National Institute of Building Sciences,
                      Solicitation Number GSIIP94EGDOOlO

05/18/94   A43455     Preaward Audit of Sole Source Contract: Systems
                      Training and Resource Technologies, Inc., Solicitation
                      Number GS-IIP94MJCOO 14

05/19/94   A42491     Pre award Audit of Cost or Pricing Data: Appian
                      Construction, Inc., Contract Number GS-08P-93-
                      JXC-0094

OS/24/94   A40633     Preaward Audit of Cost or Pricing Data: Imperial
                      Electric, Inc., Solicitation Number GS-02P-94-CUC-0042

OS/24/94   A43446     Preaward Audit of Cost or Pricing Data: Desouza
                      Construction, Inc., RFP Number GSIIP93MQC0025

OS/24/94   A43447     Preaward Audit of Cost or Pricing Data: Virginia Paving
                      Company, RFP Number GSIIP93MQC0025




                                                                                 Office of Inspector General   31
                     Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    ---~~-~~------




                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                               Title                               Better Use        Costs


OS/25/94   A40923       Preaward Audit of Change Order Proposals: W. M.
                        Schlosser Company. Incorporated. Contract Number
                        GS-03P-92-DXC-0021

OS/27/94   A40635      Audit of Termination Settlement Proposal: Gisbert
                       Construction Company, Inc., Contract Number GS-02P-
                       091-CUC-0085(N)(8a)

05/31/94   A42503       Pre award Audit of Architect and Engineering Services
                        Contract: Lehrer McGovern Bovis, Inc., Solicitation
                        Number GS-09P-93-KTC-0069

05/31/94   A42549       Preaward Audit of Lease Escalation Proposal: C & C
                        Investments, Lease Number GS-09B-88730

05/31/94   A42551       Pre award Audit of Lease Escalation Proposal: C & C
                        Investments, Lease Number GS-09B-06600

06/01/94   A41555       Preaward Audit of Architect and Engineering Services
                        Contract: Wigen, Tinchnell, Meyer & Associates, Inc.,
                        Solicitation Number GS05P94GBDOO 10

06/07/94   A40638       Preaward Audit of Cost or Pricing Data for the Cleaning,
                        Reconstruction and Initial Data Collection of the African
                        Burial Ground, Howard University, Contract Number
                        GS-02P-93-CU C-0071

06/07/94   A42534       Preaward Audit of Cost or Pricing Data: Gateway Roofing,
                        Inc., Contract Number GS-08P-93-JXC-0094

06/08/94   A42554       Preaward Audit of Change Order Proposal: CRSS
                        Constructors, Inc., Contract Number GS-07P-88-
                        HUC-0212

06/08/94   A43408       Pre award Audit of Lease Escalation Proposal: LHL
                        Realty Co., Patrick Henry Building, Lease Number GS-
                        03B-5875

06/10/94   A4064 I      Preaward Audit of Architect and Engineering Services
                        Contract: Pei Cobb Freed and Partners, Subcontractor
                        Under Dana Larson Roubal and Associates, Inc.,
                        Solicitation Number GS06P94GYC0024

06/10/94   A41553       Preaward Audit of Architect and Engineering Services
                        Contract: Betsym, Inc., Solicitation Number GS05P94-
                        GBDOOlO



32 Semiannual Report To The Congress
                     Appendix 11- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

06/13/94   A40639      Preaward Audit of Cost or Pricing Data: BPI' Properties
                       Foley Square, L. P., Contract Number GS-02P-91-
                       CUC-0057

06/13/94   A43472      Preaward Audit of Architect and Engineering Services
                       Contract: Einhorn Yaffee Prescott, Solicitation Number
                       GS11P93EGC0003

06/14/94   A42528      Preaward Audit of Cost or Pricing Data: O'Brien-
                       Kreitzberg & Associates, Inc., Contract Number GS-OOP-
                       90-BQD-0075

06/14/94   A42530      Preaward Audit of Cost or Pricing Data: Miranda
                       Landscape, Solicitation Number GS-09P-93-NPC-007 4

06/15/94   A42529      Preaward Audit of Cost or Pricing Data: RKM
                       Construction Company, Inc., Contract Number GS-08P-
                       93-JXC-0094

06/22/94   A40642      Preaward Audit of Cost or Pricing Data: Linpro New York
                       Realty, Inc., Contract Number GS02P91 CUC0058

06/27/94   A40646      Preaward Audit of Cost or Pricing Data: Zwicker Electric
                       Co., Inc., Second-Tier Subcontractor to BPI' Properties
                       Foley Square, L.P., Contract Number GS-02P-91-
                       CUC-0057

06/27/94   A42460      Preaward Audit of a Claim: Coast Fabricators, Inc.,
                       Subcontractor to Radcliffe Construction Co., Inc.,
                       Contract Number GS-09P-88-LTC-0059

06/27/94   A4246 1     Preaward Audit of a Claim: Radcliffe Construction Co.,
                       Inc., Contract Number GS-09P-88-LTC-0059

06/28/94   A40624      Preaward Audit of Change Order Proposal: Laquila
                       Construction, Inc., Second Tier Subcontractor to BPI'
                       Properties, L.P., Contract Number GS-02P-91 CUC0057

06/29/94   A40336      Pre award Audit of Architect and Engineering Services
                       Contract: Finegold Alexander & Associates Inc.,
                       Solicitation Number GS-O 1P-92-BZC-0 142

06/29/94   A40655      Preaward Audit of Cost or Pricing Data: URS
                       Consultants, Inc./Crow Construction Company,
                       Contract Number GS02P89CUC0020(N)




                                                                                  Office of Inspector General   33
                      Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                                 ---
                                                                                    ~~~-----------    -
                                                                                                     -------------   ~




                                                                                    Funds To         Questioned
Date of     Audit                                                                   Be Put To    (Unsupported)
Report      Number                              Title                               Better Use          Costs


07/07/94    A40936      Preaward Audit of Change Order Proposal: W. M.
                        Schlosser Company, Incorporated, Contract Number
                        GS-03P-DXC-0044

07/08/94    A41244      Preaward Audit of Small Business Administration 8(A)
                        Pricing Proposal: Little Cleaning Services, Incorporated,
                        Solicitation Number GS-04P-94-EWC-O 10 1

07/19/94    A4347 1     Preaward Audit of Cost or Pricing Data: Program and
                        Construction Management Group, Inc., Solicitation
                        Number GSIIP94MKCOOl9

07/20/94   A40337       Pre award Audit of Architect and Engineering Services
                        Contract: Edward Rowse Architects, Inc., Solicitation
                        Number GS-O IP-92-BZC-0 142

07/22/94    A4345 1     Pre award Audit of Change Order Proposal: Amtech
                        Reliable Elevator Co., Contract Number GS-IlpgIMQC-
                        0169

07/26/94   A43478       Pre award Audit of Cost or Pricing Data: Program and
                        Construction Management Group, Inc., Solicitation
                        Number GSIIP94MKC0034

07/28/94   A40623       Preaward Audit of Change Order Proposal: Lehrer,
                        McGovern, Bovis, Inc., Subcontractor to BPT Properties,
                        L.P., Contract Number GS-02P-91CUC0057

07/29/94   A42516       Preaward Audit of a Claim: KMS Development Company,
                        Ltd., Lease Number GS-09B-87281

07/29/94   A43467       Preaward Audit of Sole Source Contract: D&M General
                        Contracting, Inc., Solicitation Number GS-IIP-94MQC-
                        0005

08/02/94   A40334       Pre award Audit of Claim for Payment of Relocation
                        Expenses: A.C. Cruise Line, Inc.

08/02/94   A41247       Audit of Base Year Final Invoice: MManTec,
                        Incorporated, Contract Numbcr GS-04P-91-EWC-0055

08/03/94   A4348 1      Preaward Audit of Architect and Engineering Services
                        Contract: BRe Group, Ltd., Solicitation Number
                        GSIIP94EGD0007




34 Semiannual Report To The Congress
                    Appendix // . . . Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                             Title                               Better Use        Costs

08/05/94   A41830     Preaward Audit of Small Business Administration 8(A)
                      Pricing Proposal: Rodriguez Mechanical Contractors,
                      Inc., Solicitation Number GS06P94GYC0032(N)

08/08/94   A41256     Report on Audit of Proposal for Design Modification Under
                      Contract No. GS-04B-31363: The Haskell Company,
                      Jacksonville, Florida

08/09/94   A43404     Preaward Audit of Cost or Pricing Data: Potomac
                      Electric Power Company, Contract Number GS-OOP-
                      90-BSD-002 7

08/09/94   A43469     Preaward Audit of Sole Source Contract: WEB
                      Environmental Group, RFP Number GS-IIP-94-
                      MJD-0018

08/10/94   A40338     Preaward Audit of Architect and Engineering Services
                      Contract: Design Group, Inc., Solicitation Number
                      GS-O 1P-92-BZC-O 142

08/10/94   A40622     Preaward Audit of Change Order Proposal: BFT
                      Properties, Foley Square, L.P., Contract Number
                      GS-02P-91 CUC0057

08/10/94   A42513     Preaward Audit of a Claim: Sandstrom Plumbing and
                      Heating, Contract Number GS-09P-91-LTC-OO 14

08/16/94   A41250     Preaward Audit of Small Business Administration 8(a)
                      Pricing Proposal: SCG, Incorporated, Solicitation
                      Number GS-04P-94-EWC-0196

08/16/94   A43491     Preaward Audit of Architect and Engineering Services
                      Contract: VHT Associates, Solicitation No. GS05P93-
                      GBDOOOI-ZIL92270

08/17/94   A43476     Preaward Audit of Architect and Engineering Services
                      Contract: Vlfl' Associates, Solicitation Number GS 11P94-
                      EGD0006

08/17/94   A43480     Preaward Audit of Architect and Engineering Services
                      Contract: Enviro-Management & Research, Inc.,
                      Solicitation Number GSIIP94EGD0007

08/25/94   A41253     Preaward Audit of Small Business Administration 8(a)
                      Pricing Proposal: Cagebilt, Inc., Solicitation Number
                      GS-04P-94-EXC-0007



                                                                                  Office of Inspector General 35
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                -"----~"-~



                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

08/25/94   A41573       Preaward Audit of Architect and Engineering Services
                        Contract: OdIe, McGuire & Shook Corporation,
                        Solicitation Number GS05P94GBD0019

08/31/94   A41252       Preaward Audit of Supplemental Architect and Engineer
                        Services Contract: Hanscomb Associates, Incorporated,
                        Solicitation Number GS-I1P-94-EGD-0009

08/31/94   A41572       Preaward Audit of Architect and Engineering Services
                        Contract: Fanning/Howey Associates, Inc., Solicitation
                        Number GS05P94GBDOO 19

08/31/94   A43479       Preaward Audit of Sole Source Contract: D&M General
                        Contracting, Inc., Solicitation Number GS-11P94-
                        MKC0041

09/07/94   A41577       Pre award Audit of Architect and Engineering Services
                        Contract: Teng & Associates, Incorporated, Solicitation
                        Number GS05P94GBD0021

09/12/94   A41254       Preaward Audit of Small Business Administration 8(A)
                        Pricing Proposal: All-Tech Electrical Company,
                        Incorporated, Solicitation Number GS-04P-94-EXC-0042

09/14/94   A43490       Preaward Audit of Change Order Proposal: Beta
                        Construction Company, Contract Number GS-I1P91-
                        MCK0252

09/22/94   A41835       Preaward Audit of Small Business Administration 8(A)
                        Pricing Proposal: Kansas City Missouri Construction
                        Services, Inc., Solicitation Nmnber GS06P94GYC0043(N)

09/22/94   A43495       Preaward Audit of Sole Source Contract: 4-S
                        Construction, Inc., Solicitation Number GS-llP94-
                        MKC0028

09/28/94   A41257       Preaward Audit of Architect and Engineering Services
                        Contract: Reynolds, Smith and Hills, Incorporated,
                        Solicitation Number GS-04P-94-EXC-0045


FSS         INTERNAL AUDITS
04/20/94   A3347 1     Audit of the Foreign Gifts and Decorations Program

05/12/94   A42725      Review of Federal Supply Service, Total Stock
                       Requisition Average Response Time


36 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                              ~~-----~--...--.. - - . - . - - - - - - - -
                                                                               Funds To              Questioned
Date of    Audit                                                               Be Put To          (Unsupported)
Report     Number                            Title                             Better Use                Costs

07/29/94   A43029     Audit of Password Controls in the Muffill System

08/03/94   A41826     Audit of Federal Supply Service Vendor Complaint:
                      Trammell Ventures Incorporated

09/20/94   A43700     Audit of Maintenance Control Center Operations            $675,000


FSS        CONTRACT AUDITS
04/04/94   A40627     Preaward Audit of Multiple Award Schedule Contract:
                      White Storage & Retrieval Systems, Inc" Solicitation
                      Number FCGE-93-0134-N

04/06/94   A40630     Preaward Audit of Multiple Award Schedule Contract:
                      RAO Contract Sales, Incorporated, Solicitation Number
                      3FNH-93-A333-N

04/06/94   A40904     Preaward Audit of Multiple Award Schedule Contract:
                      Mettler-Toledo, Inc., Solicitation Number FCGS-X2-
                      93-0037-B

04/12/94   A41537     Preaward Audit of Multiple Award Schedule Contract:
                      Armstrong Medical Industries, Inc., Solicitation
                      Number 2FYG-JI -94-0004-B

04/12/94   A41540     Preaward Audit of Multiple Award Schedule Contract:
                      Spacesaver Corporation, Solicitation Number 3FNO-93-
                      M106-N-1-4-94

04/15/94   A41534     Preaward Audit of Multiple Award Schedule Contract:
                      Clarke Industries, Inc., Solicitation Number 7FXG-
                      Z3-93-7927 -B

04/22/94   A41542     Limited Scope Audit of Government Billings: Armstrong                                $1,561
                      Medical Industries Inc., Contract Number GS-02F-3031A

04/25/94   A43462     Pre award Audit of Cost or Pricing Data: Camillus
                      Cutlery Company, Solicitation Number 6FEP-CO-AY-
                      940055-N

04/26/94   A43452     Preaward Audit of Multiple Award Schedule Contract:
                      Parker Systems Inc., Solicitation Number 7FXI-T5-
                      93-1901-B




                                                                                Office of Inspector General            37
                    Appendix II . . . Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                        ---_._----_._.----- -_._--
                                                                                - - - .. - - - - - - .
                                                                                 Funds To       Questioned
Date of    Audit                                                                 Be Put To     (Unsupported)
Report     Number                             Title                              Better Use        Costs


04/28/94   A30708       Postaward Audit of Multiple Award Schedule Contract:                             $461,862
                        Sharp Electronics Corporation, Contract Number GS-
                        00F-4429A

04/28/94   A40637      Pre award Audit of Multiple Award Schedule Contract:
                       AS.R.S. of America, Incorporated, Solicitation Number
                       3FNO-93-M106-N

05/03/94   A41538       Preaward Audit of Multiple Award Schedule Contract:
                        Learn PC, Inc., Solicitation Number 2FYG-JI-94-0004-B

05/04/94   A41539       Preaward Audit of Multiple Award Schedule Contract:
                        Que/Prentice Hall Computer Publishing, Government
                        Sales Division, Solicitation Number 2FYG-JI-94-0004-B

05/05/94   A00528      Postaward Audit of Multiple Award Schedule Contract:                              $475,306
                       C&D Charter Power Systems, Inc., (Fonnerly C&D Power
                       Systems Division of Allied Corporation), Contract
                       Number GS-04F-00843 for the Period June 4, 1984 to
                       May 31, 1987

05/09/94   A40916      Preaward Audit of Multiple Award Schedule Contract:
                       Iron Age Corporation, Solicitation Number 7FXG-E4-
                       93-8409-B

05/09/94   A40922      Preaward Audit of Multiple Award Schedule Contract:
                       Nilfisk of America, Incorporated, Solicitation Number
                       7FXG-Z3-93-7927-B

05/10/94   A41224      Pre award Audit of Multiple Award Schedule Contract:
                       Lifesaving Systems Corporation, Solicitation Number
                       7FXG-E4-93-8409-B

05/10/94   A41234      Limited Scope Postaward Audit: LifesaVing Systems                                 $141,562
                       Corporation, Contract Number GS-07F-4206A

05/11/94   A43457      Pre award Audit of Multiple Award Schedule Contract:
                       Actronics, Inc., Solicitation Number 2FYG-JJ-94-0004-B

05/12/94   A41237      Preaward Audit of Multiple Award Schedule Contract:
                       Fireanns Training Systems, Incorporated, Solicitation
                       Number 2FYG-JI-94-0004-B




38 Semiannual Report To The Congress
                    Appendix //- Audit Report
                                                                                         Financial
                                                                                    Recommendations
                                                                                   --------- --------------------

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

05/12/94   A90932     Postaward Audit of Multiple Award Schedule Contract:                          $967,273
                      Haworth, Inc., Contract Number GS-00F-76612 for the
                      Period July 30, 1985 'Through September 30, 1988

05/17/94   A41241     Price Adjustments on Multiple Award Schedule
                      Contract: Toter, Incorporated, Contract Number GS-
                      07F-4642A as of April 1, 1994

05/18/94   A40636     Preaward Audit of Multiple Award Schedule Contract:
                      Micro Video Learning Systems, Incorporated,
                      Solicitation Number 2FYG-JI -94-0004-M

05/18/94   A42485     Pre award Audit of Multiple Award Schedule Contract:
                      Vestec Corporation, Solicitation Number FCGS-Z3-
                      90-0020-2-N

05/19/94   A41220     Postaward Audit of Multiple Award Schedule Contract:                           $133,127
                      Toter, Incorporated, Contract Number GS-07F-4642A
                      for the Interim Period September 1, 1991 through
                      March 31, 1994

OS/26/94   A40927     Limited Audit of Government Billings Under Contract                              $2.523
                      Number GS-07F-4358A: Iron Age Corporation

06/06/94   A40934     Limited Audit of Government Billings Under Contract                              $1,903
                      Number GS-00F-0751F: Douglass Industries, Inc.

06/08/94   A40330     Postaward Survey of Multiple Award Schedule Contract:
                      Leeman Labs, Inc., Contract Number GS-00F-11166

06/16/94   A41556     Preaward Audit of Multiple Award Schedule Contract:
                      SeaArk Boats, Inc., Solicitation Number 7FXI-T5-
                      93-1901-B

06/21/94   A41547     Preaward Audit of Cost or Pricing Data: Panther Air Boat
                      Corporation, Solicitation Number 7FXI -T5-93-190 1-B

06/23/94   A42112     Postaward Audit of Multiple Award Schedule Contract:                           $214,481
                      Tekmar Corporation, Contract Number GS-00F-4799A

06/30/94   A41824     Preaward Audit of Multiple Award Schedule Contract:
                      Franklin Quest Co., Solicitation Number 2FYG-JI-
                      94-0004-B

07/01/94   A41548     Preaward Audit of Cost or Pricing Data: SeaArk Marine,
                      Inc., Solicitation Number 7FXI -T5-93-190 1-B



                                                                                 Office of Inspector General 39
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                       -----    --   ------

                                                                                  Funds To      Questioned
Date of     Audit                                                                 Be Put To    (Unsupported)
Report      Number                             Title                              Better Use        Costs


07/11/94   A43464       Preaward Audit of Multiple Award Schedule Contract:
                        Learning International, Solicitation Number 2FYG-JI-
                        94-0004-B

07/12/94    A41559     Postaward Audit of Multiple Award Schedule Contract:
                       A & A Sheet Metal Products, Inc., Contract Number
                       GS-28F-001OB for the Interim Period March 1, 1994
                       through May 27, 1994

07/13/94   A43486       Pre award Audit of Cost or Pricing Data: KPMG Peat
                        Marwick, Solicitation No. FCXA-SN-930001

07/14/94   A40938       Preaward Audit of Cost or Pricing Data: lIT Electro-
                        Optical Products Division, Solicitation Number
                        7FXG-B3-91-8411-B

07/15/94   A41554       Preaward Audit of Multiple Award Schedule Contract:
                        SRA Technology Training, Solicitation Number
                        2FYG-JI -94-0004-B

07/19/94   A43460       Preaward Audit of Cost or Pricing Data: Federal Sales
                        Service, Inc., Solicitation No. 2FYS-AV-92-0001B

07/20/94   A42563       Preaward Audit of Cost or Pricing Data: Willard Marine,
                        Inc., Solicitation Number 7FXI-T5-94-1902-B

07/27/94   A41562      Preaward Audit of Multiple Award Schedule Contract:
                       Hamilton Sorter Co., Inc., Solicitation Number
                       3FNH-94-F70 I-N

07/29/94   A41563       Preaward Audit of Multiple Award Schedule Contract:
                        Outboard Marine Corporation, Solicitation Number
                        7FXI-T5-94-1902-B

07/29/94   A41564      Pre award Audit of Multiple Award Schedule Contract:
                       Mercury Marine, Division of Brunswick Corporation,
                       Solicitation Number 7FXI-T5-94-1902-B

08/02/94   A43470       Preaward Audit of Cost or Pricing Data: Gardiner, Kamya
                       & Associates, P.C., Solicitation No. FCXA-SN-930001

08/05/94   A41242      Preaward Audit of Multiple Award Schedule Contract:
                       Boston Whaler, Incorporated, Solicitation Number
                       7FXI -T5-93-190 1-B




40 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                 --------------------------------------~




                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

08/25/94   A41549      Preaward Audit of Multiple Award Schedule Contract:
                       National Education Training Group, Inc., Solicitation
                       Number 2FYG-JI-94-0004-B

08/30/94   A40343      Preaward Audit of Multiple Award Schedule Contract:
                       Rainin Instrument Co., Inc., Solicitation Number
                       FCGS-X5~94-0039- B-N

09/07/94   A41566      Audit of Termination Claim: Freeway Ford Truck Sales,
                       Inc., Contract Number GS-00F-04107

09/15/94   A 10686     Postaward Audit of Multiple Award Schedule Contract:                                $57,744
                       Honda of Russellville, Arkansas, Contract Number
                       GS-OOF-04120

09/15/94   A21270      Limited Postaward Audit of Multiple Award Schedule                                  $24,021
                       Contract: Kaplan School Supply Corporation, Contract
                       Number GS-07F-16552

09/16/94   A41821      Postaward Audit of Multiple Award Schedule Contract:
                       Beckman Instruments, Inc., Contract Number
                       GS-00F-06849 for the Period April 26, 1989 through
                       January 31, 1991

09/16/94   A43474      Preaward Audit of Multiple Award Schedule Contract:
                       Zodiac of North America, Inc., Solicitation Number
                       7FXI-TS-93-1901-B

09/20/94   A40654      Preaward Audit of Cost or Pricing Data: Applied Fabric
                       Technologies, Incorporated, Solicitation Number
                       7FXI-TS-93-190 I-B

09/22/94   A41248      Preaward Audit of Multiple Award Schedule Contract:
                       Lanier World-wide, Inc., Solicitation Number FCGR-
                       92-0041-1

09/22/94   A41570      Preaward Audit of Multiple Award Schedule Contract:
                       Abbott Laboratories, Diagnostics Division, Solicitation
                       Number FCGS-X5-94-0039-B-N

09/27/94   A42137      Postaward Audit of Multiple Award Schedule Contract:
                       Johnson World-wide Associates, Contract Number
                       GS-07F-18103




                                                                                   Office of Inspector General             41
                    Appendix 1/- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                         ---   - - - ,.   ---------   - -- - - -

                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                               Title                               Better Use        Costs


09/27/94   A42521       Preaward Audit of Cost or Pricing Data: Mustang
                        Engineered Technical Apparel Corporation, Solicitation
                        Number 7FXG-E4-93-8409-B

09/28/94   A22148      Postaward Audit of Multiple Award Schedule Contract:                                   $684,016
                       Minnesota Mining and Manufacturing Company,
                       Visual Systems Division, Contract Number GS-OOF-
                       01307

09/29/94   A41569       Preaward Audit of Multiple Award Schedule Contract:
                        Boehrtnger Mannheim Corporation, Solicitation
                        Number FCGS-X5-94-0039-B-N

09/29/94   A41574      Preaward Audit of Multiple Award Schedule Contract:
                       Leica, Inc., Solicitation Number FCGS-Y8-94-0040-B-N

09/29/94   A90889      Postaward Audit of Multiple Award Schedule Contract:                                    $717,478
                       TAB Products Company, Contract Number GS-OOF-
                       76000

IRMS        INTERNAL AUDITS
04/06/94   A30317      Audit of Federal Computer Acquisition Center's System
                       of Internal Controls

05/16/94   A41536      Audit of ADP / OA Equipment Inventory, Region 5

06/15/94   A32526      Audit of the Regional Administration of GSA Purchase
                       of Telecommunications Services (POTS) Contracts,
                       Region 9

06/21/94   A41806      Audit of GSA's Inventory Control System for Automated
                       Data Processing and Office Automation Equipment

09/26/94   A43707      Audit of MAS Pilot Project, Interim Report

09/29/94   A41845      Audit of Federal Information Systems Support Program

IRMS        CONTRACT AUDITS
04/04/94   A43449      Preaward Audit of Cost or Pricing Data: Biosphertcs, Inc.,
                       Solicitation Number KECI -93-005




42 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                               Financial
                                                                                  ~-   ..
                                                                                          Recommendations
                                                                                                      --
                                                                                       _ ,-"---------------   -   ~---------




                                                                                       Funds To      Questioned
Date of    Audit                                                                       Be Put To    (Unsupported)
Report     Number                             Title                                    Better Use        Costs

04/07/94   A42540     Preaward Audit of Cost or Pricing Data: Science Appli-
                      cations InteITlational Corporation, Solicitation Number
                      9KC-RH -93-0004

04/07/94   A42544     Preaward Audit of Cost or Pricing Data: Ogden
                      Government Services Systems Group, Solicitation
                      Number 9KC-EC-93-0002

04/13/94   A42543     Preaward Audit of Cost or Pricing Data: OAO
                      Corporation, Solicitation Number 9KC-EC-93-0002

04/18/94   A41226     Report on Audit of Proposal for Initial Pricing Under
                      Solicitation No. 4KC-JD-92-001: cms Federal Inc.,
                      Fairlax, Virginia

04/18/94   A41231     Report on Audit of Proposal for Initial Pricing Under
                      Solicitation No. 4KC-JD-92-00 1: Computer Data
                      Systems, Incorporated, Rockville, Maryland

04/18/94   A41232     Report on Audit of Proposal for Initial Pricing Under
                      Solicitation No. 4KC-JD-92-001: Computer Sciences
                      Corporation, Falls Church, Virginia

04/18/94   A42541     Preaward Audit of Cost or Pricing Data: Computer Data
                      Systems, Incorporated, Solicitation Number 9KC-RH-
                      93-0004

04/20/94   A43438     Audit Report on Termination Settlement Proposal,
                      FFP Contract No. GSOOK88AFD2759: PRC Inc., Mclean,
                      Virginia

04/20/94   A43459     Report on Audit of Subcontractor Proposal to
                      Washington Data Systems Under Solicitation No. GS-
                      KEGB-9310 Submitted by E. L. Hamm & Associates,
                      Inc., Virginia Beach, Virginia

04/21/94   A43453     Preaward Audit of Cost or Pricing Data: Wilcox Electric,
                      Inc., Kansas City, Missouri, RFP No. GSC-KEGD-93-1007

04/25/94   A43454     Report on Audit of Proposal for Initial Pricing Under RFP
                      No. GSC-KEGD-93-1007: E-Systems, Inc., Montek
                      Division, Salt Lake City, Utah

04/28/94   A42545     Pre award Audit of Cost or Pricing Data: CTA
                      Incorporated, Solicitation Number 9KC-RH-93-0004




                                                                                        Office of Inspector General            43
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 ~----.---~---~--.-----"---




                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                              Title                             Better Use        Costs

05/05/94   A43456       Pre award Audit of Cost or Pricing Data: Horizon Data
                        Corporation Request for Proposal Number GSC-
                        KEGB-9401

05/13/94   A43463       Preaward Audit of Proposal for Initial Pricing: Unisys
                        Corporation, Solicitation Number RFP GSC-KEGD-
                        94-1001

05/16/94   A41233       Report on Audit of Proposal for Initial Pricing Under
                        Solicitation No. 4KC-JD-92-001: CTA Incorporated,
                        Rockville, Maryland

05/18/94   A42130       Limited Postaward Audit of Multiple Award Schedule                     $2,119,764
                        Contract Refund: Motorola, Incorporated, Contract
                        Number GSOOK90AGS0703

OS/23/94   A43466       Preaward Audit of Sole Source Contract Proposal:
                        Digital Support Corporation, Solicitation Number
                        KECI-94-002

05/31/94   A43461      Preaward Audit of Cost or Pricing Data: AEC Data
                       Systems, Inc., Request for Proposal Number GSC-
                       KEGB-9310

06/06/94   A32184      Pre award Audit of Multiple Award Schedule Contract:
                       Storage Technology Corporation, Solicitation Number
                       GSC-KESO-C-00049-N-4-20-93

06/22/94   A42107       Postaward Audit of Multiple Award Schedule Contract:                     $126,621
                        Compaq Computer Corporation, Contract Number
                        GS-00K-92-AGS-5473

06/28/94   A42477      Preaward Audit of Multiple Award Schedule Contract:
                       Excalibur Technologies Corporation, Solicitation
                       Number KESO-94-0001 (4-19)

06/30/94   A40648      Preaward Audit of Multiple Award Schedule Contract:
                       Syncsort Incorporated, Solicitation Number KESO-
                       94-0001

06/30/94   A43441      Audit of Equitable Adjustment Proposal: PRC Inc.,
                       Contract Number GSOOK88AFD2759

06/30/94   A43458      Audit of Proposal for Initial Pricing: Washington Data
                       Systems, Inc., RFP Number GSC-KEGB-931O




44 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               --- - - - - -       ------- ---. - ---
                                                                                               --------         -------

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                            Title                               Better Use        Costs

06/30/94   A43483     Audit of Subcontractor Proposal to Unisys Corporation
                      Under RFP No. GSC-KEGD-94-1001, Submitted byCACI,
                      Inc.-Federal, Arlington, Virginia

07/07/94   A41557     Preaward Audit of Multiple Award Schedule Contract:
                      Cincom Systems, Inc., Solicitation Number KESO-94-
                      0001

07/11/94   A43482     Audit of Subcontractor Proposal to Unisys Corporation
                      Under RFP No. GSC-KEGD-94-1001 Submitted by
                      Sterling Software (U.S.), Inc., Bellevue, Nebraska

07/15/94   A42478     Preaward Audit of Multiple Award Schedule Contract:
                      Viasoft, Inc., Solicitation Number KESO-94-0001 (4-19)

07/22/94   A43450     Preaward Audit of Termination Claim: Science
                      Applications International Corporation, Contract
                      Number GS-OOK-90-AJC0530

07/26/94   A40335     Preaward Audit of Multiple Award Schedule Contract:
                      Centerline Software, Inc., Solicitation Number KESO-
                      94-0001

07/28/94   A40640     Pre award Audit of Cost or Pricing Data: AT&T
                      Communications, Contract Number GS-00K-89A-
                      HD0008

08/04/94   A42552     Preaward Audit of Multiple Award Schedule Contract:
                      Dynamic Graphics, Inc., Solicitation Number GSC-KESO-
                      94-0001(4-19)

08/04/94   A42556     Preaward Audit of Multiple Award Schedule Contract:
                      Coastcom, Contract Number GSOOK93AGS0543PSO 1

08/05/94   A41558     Preaward Audit of Multiple Award Schedule Contract:
                      Compuware Corporation, Solicitation Number KESO-
                      94-0001

08/08/94   A40649     Preaward Audit of Multiple Award Schedule Contract:
                      Linotype-Hell Company, Solicitation Number KESO-
                      94-0001

08/11/94   A40331     Preaward Audit of Multiple Award Schedule Contract:
                      Gartner Group, Inc., Solicitation Number KESO-94-000 1




                                                                                  Office of Inspector General 45
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                    --   ---   --  ------
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                              Title                             Better Use        Costs

08/15/94   A40941       Preaward Audit of Multiple Award Schedule Contract:
                        Swanson Analysis Systems, Inc., Contract Number
                        GS-00K-93AGS-5669 PSO 1

08/15/94   A42486       Preaward Audit of Multiple Award Schedule Contract:
                        Plantronics, Inc., Solicitation Number GSC-KES-
                        00065-N -05- 18-94

08/24/94   A42475       Preaward Audit of Multiple Award Schedule Contract:
                        Oracle Corporation, Solicitation Number KESO-94-000 1
                        (4-19)

08/25/94   A41565      Preaward Audit of Multiple Award Schedule Contract:
                       ADC Telecommunications, Inc., Solicitation Number
                       GSC-KES-00065-N-05-18-94

09/13/94   A41833       Preaward Audit of Multiple Award Schedule Contract:
                        Midland International Corporation, Solicitation Number
                        GSC-KES-00065-N-05-18-94

09/20/94   A40660       Pre award Audit of Cost or Pricing Data: AT&T
                        Communications, Contract Number GS-OOK-
                        89AHDOOO8

09/20/94   A42481      Preaward Audit of Multiple Award Schedule Contract:
                       Anacomp, Inc., Solicitation Number KESO-94-000 1
                       (4-19)

09/22/94   A31824      Postaward Audit of Multiple Award Schedule Contract:                     $1,790,194
                       Novell, Inc., Contract Number GSOOK87AGS6130 for
                       the Period June 25, 1987 through March 31, 1990

09/26/94   A40333      Preaward Audit of Multiple Award Schedule Contract:
                       Digital Equipment Corporation, Solicitation Number
                       KESO-94-000 1

09/27/94   A10024      Postaward Audit of Multiple Award Schedule Contract:                         $388,826
                       Dell Computer Corporation, Contract Number GSOOK-
                       87AGS6127

09/27/94   AlO025      Postaward Audit of Multiple Award Schedule Contract:                    $1,744,951
                       Dell Computer Corporation, Contract No. GSOOK-
                       88AGS6206




46 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                   ~.   ~~ ...
                                                                                             ,~-   -"'   .~   - - - - - - - - ------------

                                                                                Funds To        Questioned
Date of    Audit                                                                Be Put To      (Unsupported)
Report     Number                            Title                              Better Use         Costs

09/27/94   A43497     Report on Audit of Proposal for Revised Pricing: Unisys
                      Corporation Request for Proposal Number GSC-
                      KEGD-94-100 1

FTS2000 INTERNAL AUDITS
04/15/94   A33722     Audit of Procedures for Granting FfS2000 Waivers

OTHER INTERNAL AUDITS
04/13/94   A33035     Audit of Reimbursable Billings for Real Property
                      Disposal

04/13/94   A33733     Audit of Imprest Fund, Arlandria Field Office,
                      Alexandria, Virginia

04/20/94   A42722     Audit of Travel Vouchers Submitted by the
                      Administrator, General Services Administration

05/19/94   A32718     Audit of the General Management and Administration,
                      Internal Reimbursable Program

05/31/94   A43033     Audit of Support Services Provided to Presidential
                      Commissions

06/01/94   A32717     Audit of the Consumer Information Center Fund for
                      Fiscal Year 1992

06/10/94   A32491     Audit of GSA Automatic Data Processing and Office
                      Automation Equipment Inventory Control, Region 9

08/05/94   A42558     Audit of Proposed Systems Furniture Procurement,
                      Region 9

OTHER CONTRACT AUDITS
07/21/94   A41551     Review of Real Estate Tax Obligation for the Harold
                      Washington Social Security Payment Center and the
                      Federal Archives and Records Center, Chicago, Illinois




                                                                                Office of Inspector General                                  47
                                   endix 111- Delinquent Debts

GSA's Office of the Chief Financial Officer provided the      • Continued to offer to personal property collection offi-
following information.                                          cers training intended to help minimize losses and
                                                                therefore claims against employees.
GSA Efforts To Improve Debt Collection                        • Increased emphasis on the use of credit cards for pur-
During the peIiod ApIi11, 1994 through September 30,            chasing items from GSA Credit cards permit immediate
1994, GSA efforts to improve debt collection and reduce         verification of the availability of funds whereas checks
the amount of debt written off as uncollectible focused         must be processed and sometimes returned for insuf-
on upgrading the collection function and enhancing debt         ficient funds, thus necessitating additional collection
management. These activities included the following:            action.

.. Implemented the Accounts Receivable Claims System          • Referred to the U.S. Army for the first time some exist-
   (ARCS) which automatically generates monthly follow-         ing delinquent accounts. These debtors will be listed
   up letters for delinquent accounts; accrues interest,        in the U.S. Army's, "List of Contractors Indebted to the
   penalties, and administrative charges; posts payments;       United States." Users of this book will be made aware
   makes entries into the main accounting system; and           of the debtors' delinquent status and may not extend
   produces various reports. 'The ARCS frees technicians        credit or contractual arrangements.
   from performing many cleIical tasks, allowing them to
                                                              • Participated in quarterly follow-ups with Public Build-
   pursue additional collection actions.
                                                                ings Service contracting officers concerning disputed
.. Began requesting social security numbers of potential        claims and with the Office of Audit Resolution and Man-
   buyers at sealed bid sales. The availability of a social     agement Controls regarding audit-related items.
   security number will facilitate any necessary future
                                                              • Continued to stay abreast of policy guidance issued by
   collection activity.
                                                                external sources. Recently, the Financial Management
• Continued to participate in the IRS Tax Refund Offset         Service of the Department of the Treasury issued "Man-
  Program which now includes consumers in addition              aging Federal Receivables." Adherence to gUidance of
  to commercial debtors. GSA also partiCipated in the           this nature helps improve debt collection and reduces
  interagency debt/ credit forum.                               write-offs.

Non-Federal Accounts Receivable

                                                       As of                As of
                                                   April I, 1994      September 30, 1994                Difference

 Total Amounts Due GSA                              $44,384,572             $46,503,700             $2,119,128
 Amount Delinquent                                  $25;888,394             $25,932,404             $     44,010

 Total Amount Written
 Off as Uncollectible
 Between 4/1/94 and
 9/30/94                                            $   2,317,896


Of the total amounts due GSA and the amounts                  1994, approximately $1 million and $963,000,
delinquent as of April 1, 1994 and September 30,              respectively, are being disputed.




48 Semiannual Report To The Congress
                      Appendix IV -- Reporting Requirements

The table below cross-references the reporting                                     in Senate Report No. 96-829 relative to the 1980
requirements prescribed by the Inspector General Act of                            Supplemental Appropriations and Rescission Bill is
1978, as amended, to the specific pages where they are                             also cross-referenced to the appropriate page of the
addressed. The information requested by the Congress                               report.



                                                        Requirement                                                                                  Page
 Inspector General Act
      Section 4(a)(2)-Review of Legislation and Regulations ......................................................................... 15

      Section 5(a)(I)-5ignificant Problems, Abuses, and Deficiencies ........................................................... 2,8

      Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
        and Deficiencies .............................................................................................................................. 2,8

      Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................ 25

      Section 5(a)(4)-Matters Referred to Prosecutive Authorities ................................................................. 21

      Sections 5(a)(5) and 6(b)(2)-Summary ofInstances Where Information Was Refused ......................... None

      Section 5(a)(6)-List of Audit Reports .................................................................................................... 28

      Section 5(a)(7)-Summary of Each Particularly Significant Report ....................................................... 2,8

      Section 5(a)(8)-Statistical Tables on Management Decisions on Questioned Costs ............................. 20

      Section 5(a)(9)-5tatistical Tables on Management Decisions on Recommendations
        That Funds Be Put to Better Use ..................................................................................................... 19

      Section 5(a)( 10)-5ummary of Each Audit Report Over 6 Months Old for Which No
        Management Decision Has Been Made ........................................................................................... None

      Section 5(a) (1 I)-Description and Explanation for Any Significant Revised
        Management Decision .................................................................................................................. ; .. None

      Section 5(a)(12)-Information on Any Significant Management Decisions With Which
        the Inspector General Disagrees ..................................................................................................... None

 Senate Report No. 96-829
      Resolution of Audits ............................................................................................................................ 18

      Delinquent Debts ................................................................................................................................. 48




                                                                                                                        Office of Inspector General 49
                                       Notes




50 Semiannual Report To The Congress
Federal Recycling Program   0-   Printed on Recycled Paper
